<html>
<title> - FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR MILITARY SPACE ACTIVITIES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-44]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2008

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                 STRATEGIC FORCES SUBCOMMITTEE HEARING

                                   ON

              BUDGET REQUEST FOR MILITARY SPACE ACTIVITIES

                               __________

                              HEARING HELD

                             MARCH 23, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                     U.S. GOVERNMENT PRINTING OFFICE
37-322 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                     STRATEGIC FORCES SUBCOMMITTEE

                ELLEN O. TAUSCHER, California, Chairman
JOHN SPRATT, South Carolina          TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               TRENT FRANKS, Arizona
RICK LARSEN, Washington              MAC THORNBERRY, Texas
JIM COOPER, Tennessee                MICHAEL TURNER, Ohio
HANK JOHNSON, Georgia                MIKE ROGERS, Alabama
DAVID LOEBSACK, Iowa
               Adrienne Ramsay, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                    Jason Hagadorn, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Friday, March 23, 2007, Fiscal Year 2008 National Defense 
  Authorization Act--Budget Request for Military Space Activities     1

Appendix:

Friday, March 23, 2007...........................................    33
                              ----------                              

                         FRIDAY, MARCH 23, 2007
FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
                       MILITARY SPACE ACTIVITIES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Everett, Hon. Terry, a Representative from Alabama, Ranking 
  Member, Strategic Forces Subcommittee..........................     3
Tauscher, Hon. Ellen O., a Representative from California, 
  Chairman, Strategic Forces Subcommittee........................     1

                               WITNESSES

Chilton, General Kevin P., Commander, Air Force Space Command....    12
Kerr, Dr. Donald M., Director, National Reconnaissance Office....     8
Sega, Dr. Ronald M., Under Secretary of the Air Force............     5

                                APPENDIX

Prepared Statements:

    Chilton, General Kevin P.....................................    67
    Kerr, Dr. Donald M...........................................    54
    Sega, Dr. Ronald M...........................................    37

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Bartlett.................................................   104
    Mr. Everett..................................................    99

 
FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
                       MILITARY SPACE ACTIVITIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                             Strategic Forces Subcommittee,
                            Washington, DC, Friday, March 23, 2007.
    The subcommittee met, pursuant to call, at 9:00 a.m., in 
room 2212, Rayburn House Office Building, Hon. Ellen Tauscher 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ELLEN O. TAUSCHER, A REPRESENTATIVE 
    FROM CALIFORNIA, CHAIRMAN, STRATEGIC FORCES SUBCOMMITTEE

    Ms. Tauscher. The hearing will come to order.
    The Strategic Forces Subcommittee meets today to receive 
testimony on national security space activities from the Under 
Secretary of the Air Force, Dr. Ronald Sega; the Director of 
the National Reconnaissance Office (NRO), Dr. Donald Kerr; and 
the Commander of Air Force Space Command, General Kevin P. 
Chilton.
    I want to thank each of our distinguished witnesses for 
being here today.
    This hearing is a very important opportunity for the 
subcommittee to consider the posture of our Nation's space 
assets and to reflect on a recent event that has exposed the 
fragility of these systems. I am speaking of China's test of a 
direct-ascent, kinetic kill anti-satellite weapon (ASAT) on 
January 11, 2007.
    The Chinese aimed this weapon at one of their own aging 
weather satellites and destroyed the target--creating a debris 
field of thousands of lethal objects. This debris will remain 
in low-earth orbit (LEO) and threaten satellites, the Space 
Shuttle, and the International Space Station, for several 
decades.
    The question now is: How should we respond?
    The United States has been at this crossroads before. In 
the late 1980's, the former Soviet Union and the United States 
unofficially agreed to halt the development of weapons that 
target space assets. This understanding arose, in large 
measure, from concerns about the persistent debris fields 
created by a U.S. direct-ascent ASAT test.
    I am mindful of the head of United States Strategic Command 
(USSTRATCOM), General Cartwright's comments before the full 
committee Wednesday, that not every problem in space requires a 
solution in space, as well as his concern about a possible arms 
race in space. And I would appreciate your comments about his 
concerns.
    However, today I would like to focus more narrowly on the 
status of our current space assets. I want to make sure that my 
subcommittee, as well as the Department of Defense (DOD), are 
doing everything we need to ensure that our warfighters retain 
the advantage of space-based systems, and that this advantage 
is not degraded by the Chinese test or other future attacks.
    Future attacks might not come just from the likes of a 
kinetic kill ASAT, but also from ground-based lasers and 
electronic jammers. It is also possible that an enemy might 
directly attack the ground-based components or communications 
links used by satellites. Our satellite capabilities may be 
vulnerable to attacks through cyberspace, as well.
    One of the most basic requirements for protecting our 
satellites, which I am concerned has not been emphasized 
sufficiently, is to know their current status and to understand 
the threats they face.
    Today, I would ask the witnesses to address what we can do 
to improve security as well as the situational awareness of our 
assets on-orbit.
    With an aging legacy generation of systems on-orbit, the 
national security space community has been struggling to 
develop and field a new generation of systems for the past 
decade.
    Many of these systems have been plagued by inaccurate cost 
estimates and optimistic predictions of technical maturity. 
Some of the programs have been required to be recertified as 
``critical to national security'' after reaching Nunn-McCurdy 
statutory limits on cost overruns.
    Two programs that breached this statutory cap recently were 
Space Based Infrared System (SBIRS)-High and National Polar 
Orbiting Operational Environmental Satellite System (NPOESS).
    I would like to know if our witnesses are concerned that 
other programs in the space portfolio might breach this 
statutory cap this year.
    More generally, I am concerned that the space acquisition 
system is broken, and I would ask our witnesses to discuss 
steps that we can take to fix the process.
    I am very well aware of the benefits space-based assets 
provide to the warfighter, and I am committed to maintaining 
these capabilities without any gaps. Yet over the past few 
years, Congress slowed the development of selected systems 
through the budget process.
    This has been due to concerns about the pace of these new 
programs and an emphasis on ``transformational systems'' 
designed to skip a technological generation.
    I would like to ask our witnesses today to address the 
relative merit of proceeding with some of these new systems at 
a time when we are becoming more aware of our shortfalls in the 
areas of Space Situational Awareness (SSA) and the protection 
of our current assets.
    While we have many questions, I want to assure you that the 
Congress is committed to working with the Department and the 
intelligence community (IC) to put our national security space 
programs on an affordable, sustainable track--one which 
accounts for the change in the threat environment and will 
protect our warfighters and the American people.
    Before we proceed, I would like to remind my colleagues and 
the witnesses that we are in open session and to take care to 
keep our questions and answers unclassified.
    With that, I would like to thank the witnesses again for 
being here today, and I look forward to your testimony.
    As I told our witnesses, we are expecting some votes on the 
floor and perhaps as soon as the next half-an-hour, and then 
perhaps some votes later in the morning. And we would just 
suspend our testimony and questioning until we can come back 
and finish it.
    Now, I would like to recognize my very good friend and my 
colleague, the distinguished Ranking Member, Mr. Everett, and 
offer him the time that he chooses for any comments he would 
like to have.
    Mr. Everett, the floor is yours.

STATEMENT OF HON. TERRY EVERETT, A REPRESENTATIVE FROM ALABAMA, 
         RANKING MEMBER, STRATEGIC FORCES SUBCOMMITTEE

    Mr. Everett. Thank you very much, Madam Chairman. Thank you 
for your leadership in calling this meeting. It is extremely 
important. And I join you in welcoming our guests.
    We thank you for your service and your leadership in the 
space community.
    Space is complex and requires our Nation's best and 
brightest. Please relay our gratitude to the men and women in 
your respective organizations for their dedication and hard 
work and the sacrifices that they make.
    I have had a chance to talk with General Chilton about the 
reliance our troops have on space. He made the comment that 
once you have it, you expect it. I think he is right on the 
mark.
    And I believe that, as the threat grows, our military 
capabilities advance on land and sea and air, cyberspace, and 
we must keep--and in space itself--and we must keep pace. Space 
capabilities are essential for nearly every military operation 
our forces undertake.
    They also heavily contribute to our economy. In 2006, space 
capabilities contributed roughly $97 billion to the global 
economy. And the annual growth is about seven percent a year. 
The Global Positioning System (GPS) industry alone contributed 
roughly $30 billion.
    This is why the sustainment and modernization of our space 
capabilities and the infrastructure is so important. With much 
of the baby boomer aerospace workforce beginning to retire, we 
must also ensure that their expertise is passed on to younger 
generations.
    I am deeply troubled by the Chinese ASAT satellite test 
that occurred in January. While we have discussed these threats 
in great depth in classified briefings, I have a few comments 
to make here.
    The test clearly sent a message that China has the ability 
to hold our military and commercial satellites at risk. But it 
is not the only threat to space.
    As I have discussed in previous sessions, we must also pay 
attention to other threats, such as STRATCOM and GPS-jamming 
lasers, orbital debris, space weather, and the threats to our 
ground stations.
    We must place emphasis on increasing our Space Situational 
Awareness--something we have talked about often--and developing 
a comprehensive strategy for the protection of our space 
assets. I also believe we must think strategically about the 
long-term implication these threats have on our Nation's space 
architecture.
    I look forward to hearing our witnesses' thoughts on this.
    The fiscal year 2008 budget request reflects a great deal 
of thought and hard work, and we recognize the fiscal 
responsibilities under which this budget was crafted. However, 
we have a responsibility to address some of the important 
issues that I would ask our witnesses to discuss on the stand 
today.
    Second, I would like to highlight a few areas that I am 
specifically interested in hearing about today.
    Progress in space acquisition. We seem to repeat the same 
concerns about cost growth and program delays year after year. 
A Governmental Accountability Office (GAO) study, commissioned 
last year by this subcommittee, found that cost growth is due 
to the tendency to start programs before knowing whether 
requirements can be achieved within the available resources.
    Have we turned the corner on such programs as SBIRS-High, 
Advanced Extremely High Frequency (AEHF)--and Evolved 
Expendable Launch Vehicle (EELV)?
    The newer programs, such as Transformational Communications 
Satellite (TSAT), GPS-3 and Space Radar--what confidence do you 
have that the acquisition strategies are executable, the 
technology can be matured and the resource requirements are 
adequately understood?
    Finally, the implementation status of the operational 
responses phase, the Operationally Responsive Space (ORS) 
program office, which Mr. Secretary, as you know, myself and 
Mr. Reyes saw the 14th Air Force stand up out there last year. 
And ORS was a key legislative provision for this subcommittee 
in last year's bill.
    Dr. Kerr, I am specifically interested in hearing about the 
following: NRO's efforts to improve its space acquisition--the 
concerns I outlined for Dr. Sega are equally applicable to your 
organization; your thoughts on how NRO is providing support to 
the warfighting community and areas where you believe this can 
be improved.
    And General Chilton, I would like to hear your thoughts on 
progress in our Nation's space cadre and your efforts to 
recruit, train and manage to the career path of our talented 
space professionals; the space capability needs and priorities 
of the combatant commander and our forces in the field; your 
thoughts on the operational integration of space.
    Finding new and better ways to leverage our space assets is 
critical to today's battle. Initiatives such as ORS give us 
hope that we can find innovative ways to acquire and afford new 
space systems at a much lower cost.
    Also, how space intelligence and SSA can be better 
integrated with space satellite operations, providing near 
real-time support to military users.
    Finally, gentlemen, I would like to hear from each of you 
on efforts to enhance black and white space integration. Also, 
please discuss what contributions you and your organizations 
have made to improving interagency collaboration across 
national security space.
    Again, thank you for being here with us today. Your work is 
critically important to our Nation. And I again thank our 
chairman for calling this important hearing.
    Thank you.
    Ms. Tauscher. I thank the ranking member.
    He has brought a lot of expertise and time to this effort, 
and I thank him for the questions that he has embedded in his 
statement.
    Dr. Sega, Dr. Kerr, General Chilton, first let me thank you 
and your staff for the comprehensive statements that you not 
only submitted on time, but really provided us with a chance to 
get, I think, at the learning curve that we intended to.
    Your statements will be submitted to the record. If you 
could summarize as best you can in five minutes or so what the 
salient points of these statements are and perhaps begin to 
answer some of the questions that the ranking member and I have 
put forward in our statements, that would be great. And then, 
when members arrive, we will begin our questioning and 
answering.
    So, I will start with Dr. Sega. Thank you.

  STATEMENT OF DR. RONALD M. SEGA, UNDER SECRETARY OF THE AIR 
                             FORCE

    Dr. Sega. And thank you.
    Madam Chair, Congressman Everett and distinguished members 
of the committee, it is an honor to appear before you today as 
the Under Secretary of the Air Force and Department of Defense 
Executive Agent for Space to discuss a topic that is vital to 
our Nation and national security space.
    I thank you for submitting the statement for the record.
    Ms. Tauscher. You are welcome.
    Dr. Sega. Over the last year we continued to focus on three 
areas that I discussed with the committee last year: 
integration across national security space, as well as with 
air, land, sea, and cyberspace; getting back to basics in our 
acquisition of space programs; and the importance of ensuring 
the vitality and proficiency of our space professionals and our 
science and engineering workforce.
    I am pleased to report that we have made progress in all 
these areas and are starting to see the benefits of this 
approach. In fact, at this time, there is no Nunn-McCurdy 
breach in our space systems, nor do we foresee a Nunn-McCurdy 
breach this year in our space programs.
    I would like to highlight that we are working very hard to 
ensure continuity of service and some key capabilities. These 
include: missile warning; strategic communications; and 
position, navigation and timing.
    The global rate of change of technology in the 21st century 
and the number of nations directly engaged in space continues 
to increase. The capacity to contest space operations and 
capability is also growing, as evidenced by the recent use of a 
kinetic ASAT weapon.
    As a result, we can no longer consider space to be a safe 
haven or sanctuary, and Space Situational Awareness, as was 
pointed out, has become increasingly important.
    To enable us to better understand the activity in space is 
the key element of us supporting and protecting our space 
capabilities.
    ORS also has become more critically important to us. It 
provides an opportunity for us to gain the ability to 
reconstitute quickly or augment existing satellite 
constellations.
    We have had several achievements across the DOD space 
portfolio in the last year. On March 8, 2007, we accomplished 
our 50th consecutive successful operational launch of national 
security space satellites. It is a national record. It far 
exceeds our previous record of 42 set in the years 1968 to 
1971.
    We have made significant progress in Space-Based Infrared, 
the SBIRS program. The first Highly Elliptical Orbit--HEO-1--
SBIRS payload was successfully launched last year and has met 
or exceeded all on-orbit performance expectations.
    Several key tests were also conducted in the first SBIRS 
geosynchronous earth orbit (GEO) satellite payload and 
spacecraft--in preparation for launch in 2008.
    Continue to emphasize the integration collaboration, not 
only across the national space community, but also across 
functional areas, such as intelligence, surveillance and 
reconnaissance (ISR), and among DOD entities and other 
Government agencies, industry, academia, and Congress.
    Our goal is to create partnerships. We believe they are 
essential to delivering requirements on cost and on schedule 
and ensuring appropriate funding stability for these programs.
    We have continued to refine and implement the back-to-
basics initiative, as we discussed last year; promoting renewed 
emphasis on increasing discipline in the development and 
stabilization requirements and resources; improving systems 
engineering practices and management; improving standards and 
increasing the in-plant presence of our workforce; and 
implementing a more deliberate acquisition planning strategy.
    We have also established a goal of funding to a cost 
estimated 80 percent confidence, to help ensure space program 
success.
    The back-to-basics approach is focused on mission success 
and our space acquisition programs and is divided into four 
charts. I refer to the chart here.
    The foundational piece is science and technology. And the 
next development in technology is technology development, 
systems development and then system production.
    It is in the systems production where we are reducing risk, 
so that we bring technologies on more mature. The acquisition 
cycle time should be reduced, and we believe cost and schedule 
risk is reduced.
    The next generation is systems development, which is key 
and very, very important to prepare for the next generation of 
a capability and the next generation's development in science 
and technology.
    Let me give you one example of how this is working on a 
major acquisition program. One is GPS-3A.
    Through our requirements process, the Joint Requirements 
Oversight Council (JROC) has validated the block approach to 
the GPS-3A satellite. It is important that we go beyond 2F to 
add another frequency, L1C, compatible with Galileo, and 
additional power for anti-jam in the M-Code, approximately a 
factor of 10 in power, and a growth path forward for 3B and 3C.
    Three-B will have crosslinks and additional capabilities. 
We will work on them in parallel with developing the 3A 
satellite. When that has matured, we will insert them and 
develop the 3B satellite constellation.
    In parallel with that, another generation, the spot beam is 
necessary for us doing the technology development work, which 
will then mature to systems development and become the 
additional capability in GPS block 3C.
    Meanwhile, the fundamentals of clocks, for example, needs 
to be part of our science and technology program. So it is an 
investment portfolio to assure us that we have position, 
navigation and timing capability for our country going forward. 
So, this is what you see in the budget today.
    In July, Congressmen Everett and Reyes witnessed the 
standup of the space development and test wing. That is in our 
product center, Space & Missiles System Center (SMC). And they 
do the systems development and the system production.
    There, across the street from the Air Force research 
laboratory that does science and technology and technology 
development, so we can accelerate from an idea to a fielded 
system. And that is kind of a core for our ORS work in 
Albuquerque.
    Our example of that was the TacSat-2 satellite. Went out to 
see that activity on Wallops Island a few days before it 
actually launched. We made a decision to buy a Minotaur booster 
for that satellite just seven months prior to it actually 
launching.
    The team was from the Air Force, Army, Navy and National 
Air & Space Administration (NASA). And it is on-orbit and doing 
well.
    So, that is our first in a series of TacSat satellites. 
Part of ORS and our ORS budget, as you see, has gone up 
significantly from our 2007 request to 2008.
    The next capability I would like to talk very briefly about 
is that of missile warning, missile defense, technical 
intelligence and battle space characterization--SBIRS.
    Now, as we work on SBIRS--think of that in this block one 
approach--what follows SBIRS? That is the AIRSS program--
Alternative Infrared Satellite System program--where we have 
let contracts for the technology development work in terms of 
the focal point arrays and electronics that are fundamental to 
that satellite, as well as some system definition work that is 
here.
    In an investment portfolio strategy, we not only are 
looking at today's but tomorrow's solutions, to continue the 
capability on-orbit.
    So, that is the approach that we have used--back-to-basics 
block approach.
    Ms. Tauscher. Dr. Sega, we have to go vote. And coming back 
and forth, I think we will probably restart around 9:40. If we 
can get back before that, we will. But we have to go vote, and 
we will get a sense for whether we will have any future votes 
in the next hour or so.
    So, we will be back as fast as we can. Thank you.
    [Recess.]
    Ms. Tauscher. Thank you so much. I am sorry that we had to 
interrupt the proceedings for votes, but that is the other part 
of our job that we have to do.
    Dr. Sega, you wanted to continue, please?
    Dr. Sega. Thank you.
    And I will just make one last point. That is with respect 
to workforce.
    I think it is the finest in the world. We do have some more 
experienced personnel, who will soon be eligible to retire. So 
we are working hard to attract and retain the technically 
skilled people to ensure we have the appropriate technical 
foundation and essential skill sets available to accomplish our 
space missions.
    The National Defense Education program continues to provide 
the opportunities for scholarships for math, science, 
engineering and foreign language, with a focus on critical 
skills and critical people.
    That was requested and funded at $10 million in 2006, $20 
million in 2007, and we are requesting $44 million. It is a 
small but important part of our efforts.
    You will hear more of the National Space Security Institute 
led by General Chilton. That is serving us well, also.
    So, in conclusion, our Nation continues to depend on its 
space capabilities. It is an integral part of military power, 
industrial capability and economic vitality.
    We must continue to ensure the continuity of services in 
critical areas such as missile warning, strategic 
communications and position, navigation and timing.
    We continue to focus on integration, America's space 
efforts, back-to-basics approach to space acquisition, and a 
continuing emphasis on strengthening America's professionals--
space professionals--and our science and engineering workforce.
    So, initial application of our strategy over the past year 
has shown promising results, as we continue toward securing our 
Nation's space capabilities for the future.
    I look forward to continuing working with the committee, 
and thank you for your continued support of national security 
space.
    [The prepared statement of Dr. Sega can be found in the 
Appendix on page 37.]
    Ms. Tauscher. You are welcome, Dr. Sega.
    Dr. Kerr, please. Once again, your testimony has been put 
into the record. If you could summarize, we would appreciate 
it. Thank you.

      STATEMENT OF DR. DONALD M. KERR, DIRECTOR, NATIONAL 
                     RECONNAISSANCE OFFICE

    Dr. Kerr. Madam Chair and Mr. Everett, thank you for this 
opportunity to appear before you again this year.
    As you know, the NRO is a joint Department of Defense and 
intelligence community organization. And we are involved in the 
research, development, acquisition, launch and operation of 
overhead reconnaissance systems.
    They are integral to military operations. We support battle 
space preparation, precision targeting, wide area surveillance, 
blue force tracking and battle damage assessment, as well as 
providing near real-time support to ongoing tactical 
operations.
    And the definition for near real-time is seconds to 
minutes, unlike past history where it might be months.
    Simply put, the NRO systems provide the United States with 
a distinct asymmetric advantage in a world that is in fact 
defined by rapidly changing targets and threats.
    The NRO's performance since 9/11 has demonstrated that 
overhead systems--designed, in some cases, for a very different 
era and against a different problem set--can be adapted to 
collect against small fleeting targets with dramatic success.
    Since the NRO's inception in 1961, our mission has been to 
build and fly the most technical, most versatile and most 
enduring reconnaissance spacecraft in the world.
    These systems are required to provide national intelligence 
24 hours a day, 7 days a week and, of course, 365 days a year. 
And they, of course, must adapt every day to the challenges 
before us.
    We initially developed these systems during the height of 
the Cold War, in the analog era. And yet, they continue today 
in the digital age against targets that did not exist when the 
Soviet Union was America's principal strategic threat.
    One of these systems last year celebrated its 25th 
anniversary. It has been to a few wars, built with 
specifications for the Cold War, supported the conflict in the 
Falklands, Gulf I, the invasion of Afghanistan and the 
continuing Pak-Afghan border area work and, of course, now 
Iraq.
    It is remarkable that the developers did their job as well 
as they did. It is even more remarkable that those on the 
ground dealt with the effects of aging, so that that spacecraft 
still contributes to our national security today.
    So, 25 years and counting is something we are very proud 
of.
    A few other brief examples of what we bring in terms of 
operationally responsive capabilities. Our entire overhead 
constellation supports combat search and rescue when it is 
needed. And that is truly a real-time capability, one that has 
led to the rescue of many downed airmen over recent years.
    It also helped us to identify technical solutions to 
counter the use of improved explosive devices (IEDs)--another 
trying area for the United States.
    And closer to the user, we have developed Web-based tools 
now transferred to the National Geospatial-Intelligence Agency 
that allows people worldwide to access libraries, as well as 
current data in support of their tactical operations.
    It is important to make note of the fact that we are not a 
self-tasking organization. That would be dangerous. We work 
with our mission partners. The functional manager for signals 
intelligence (SIGINT) is my colleague, the director of the 
National Security Agency (NSA). In parallel for imagery, it is 
Admiral Murrett at NGA.
    And so, other than things like blue force tracking, where 
we go direct to the user, it is always as part of the larger 
national capability.
    One of the important factors, as well, because we operate 
in space we can provide global situational awareness to the 
national leadership, even when other intelligence capabilities 
have been focused on particular regional conflicts. And so, 
that is an important and continuing part of what we do.
    We, too, are focused on acquisition excellence, and I will 
mention a few of the things that at least give us a sense that 
we are making progress in that area.
    With regard to becoming operationally responsive in space, 
we are doing that principally on the ground. This is where we 
can best respond, because we can do it in a period of weeks and 
not longer. And there are remarkable steps that have been made 
to make the SIGINT system, as well as imagery, more responsive 
through better processing and delivery on the ground to the 
users.
    I have also consolidated our ground system development 
efforts into a single integrated program that links to a 
commitment to have an integrated ground architecture shared by 
NGA, NSA, DIA, as well as the NRO.
    And we are well along in setting that architecture in 
place. Pieces of it already exist in Iraq in support of the 
conflict there.
    This year's budget also includes the first jointly funded 
approach to Space Radar. It is a pleasure to be able to report 
that the intelligence community and the Department of Defense, 
I think have reached a way forward, where both will be 
contributing to the development of this very important program.
    The funds have been transferred to the NRO military 
intelligence program, and more importantly, the merging funds.
    There is a single program manager. And so, while he is 
drawing on resources from both the intelligence community and 
the Department of Defense, there is no confusion about who has 
the responsibility for that program; it is Major General Tom 
Sheridan.
    Last August, you are aware that the President signed the 
new National Space Policy. The NRO was a member of the 
interagency team that developed the policy, and we are working 
with the other team members, including Dr. Sega and General 
Chilton at the table, to move that forward, as well.
    With regard to what we are doing in, call it the 
infrastructure for our space program, the Air Force and the NRO 
are working together to improve the career development of our 
space professionals.
    With Space Command, we have created an Air Force-NRO space 
assignment advisory board to track the careers of space 
professionals to ensure that they are provided the job 
experiences, as well as the education and training, necessary 
for their professional advancement.
    We have also teamed with Space Command in training space 
professionals across the Government at the Non-proliferation 
and National Security Institute (NNSI), which I am sure General 
Chilton will speak more about.
    Finally, locally, we have teamed with and contracted with 
two local universities to offer additional educational 
opportunities to both military and civilian employees of the 
NRO--not just at the certificate level, but at the master's 
level--in engineering, administration or public management, to 
make it portable, something they can take with them in their 
careers.
    Improving our acquisition processes has been the focus for 
me since I took over the NRO in July of 2005. We have abandoned 
``acquisition reform,'' as it once was known, and we are making 
progress that is measurable.
    Two quick points in that regard.
    As part of the President's management agenda and the 
Government Performance and Results Act, OMB evaluates at least 
one of our major programs every year. In the last evaluation, 
our communications directorate received a grade of 81, the 
highest of all of the intelligence community agencies, and 
compared very well with the best across the Government.
    Second, our mission integration and development program--
the MIND--was recognized last October by the Department of 
Defense and the National Defense Industrial Association, as one 
of the Department's top five programs.
    The National Space Policy also includes interagency 
partnerships as a key feature. This is a natural for the NRO, 
since we are already a joint venture.
    Besides the routine interactions with our mission partners, 
we also have more formal venues, like the Space Partnership 
Council, which includes Air Force Space Command, U.S. Strategic 
Command, the defense executive agent for space sitting next to 
me, Director of Defense Research & Engineering (DDR&E) and 
DARPA.
    This council addresses broad issues across the 
infrastructure that supports us all. And so, concerns about 
EELV, communications and the like, are what comes to the table, 
and we do actually occasionally take action, which is the best 
part of it.
    I also have a deputy director for mission support. It is 
his job, in fact, to deal with warfighter needs. He is 
responsible for the 47 representatives that we have in the 
various commands and theaters, and it is to help users best 
employ the capabilities that we are responsible for.
    In addition, he is the deputy commander of the Joint 
Functional Component for Space under U.S. Strategic Command.
    Interestingly enough, General Shelton, who is also 14th Air 
Force, is the commander. General Horne, U.S. Army, is the first 
Army flag officer to serve at the NRO, and will be the deputy 
for that position.
    Science and technology, of course, is key to our future, as 
it is the broader Department of Defense. The NRO has had an 
advanced science and technology directorate for many, many 
years. That is where we invest in the enabling technologies 
that sustain our ability to deliver the capabilities that we 
have.
    One final message that you might particularly appreciate is 
the importance we put on sound financial management. Since 
fiscal year 2000, we have undergone annual financial audits by 
independent public auditors.
    In fiscal year 2003, we received a clean audit opinion--the 
first in the intelligence community.
    Now for the bad news. We have not been able to repeat it, 
and for a very interesting reason. We cannot demonstrate a 
valuation and depreciation model for on-orbit systems to the 
satisfaction of the auditors. [Laughter.]
    Ms. Tauscher. Do they want to do due diligence? [Laughter.]
    Dr. Kerr. That is right. We will be glad to send them, if 
we can afford it. But we----
    [Laughter.]
    Ms. Tauscher. That may be a good idea.
    Dr. Kerr. We are working with the Financial Accountability 
Standards Board (FASB).
    Ms. Tauscher. Right, FASB.
    Dr. Kerr. And we are--the FASB--and doing so with NASA and 
others in the intelligence community, because there are a 
number of systems the U.S. Government buys and puts in places 
where they cannot be recovered. And so, we need it acknowledged 
in an appropriate way to deal with that problem.
    So, we are focused on proper funds management. We have had 
no criticism for that, only how we depreciate satellites. And 
so, we are still the only member of the intelligence community 
that has ever gotten an unqualified opinion.
    So, Madam Chair, we appreciate this opportunity to be with 
you and answer your questions. Thank you very much.
    [The prepared statement of Dr. Kerr can be found in the 
Appendix on page 54.]
    Ms. Tauscher. Thank you very much, Dr. Kerr. I very much 
appreciate your comments about putting some auditors--and 
perhaps we will send them with a lawyer or two into orbit. 
[Laughter.]
    General Chilton, I was thrilled to come to your command 
last month. Let me thank you and the airmen and all the joint 
military staff that you have there. It was a phenomenally 
impressive opportunity for me to be there and to meet with you 
and see your facilities and to get a briefing there.
    So, we would love to hear your testimony. And obviously, 
your testimony has been submitted to the record. And if you can 
give us a brief synopsis of it, we would appreciate it.

  STATEMENT OF GENERAL KEVIN P. CHILTON, COMMANDER, AIR FORCE 
                         SPACE COMMAND

    General Chilton. Happy to. Thank you, Madam Chair, for your 
kind words. And, of course, you and all the members of the 
committee are always welcome to come visit at Air Force Space 
Command. We are proud of what we do out there, particularly of 
our men and women who serve out there.
    Ms. Tauscher. Thank you.
    General Chilton. Madam Chair, Representative Everett and 
distinguished members of the committee, it is truly a privilege 
for me to be with you all today.
    And I am also proud to join the table here with my good 
friends, Dr. Kerr and Dr. Sega, two great leaders on our 
national security space team.
    I am also proud to have with us today a member of Air Force 
Space Command. Colonel Jay Raymond is one of our space leaders, 
and he is seated right here.
    Jay, thank you.
    He is a commander out at Vandenberg Air Force Base, of the 
group out there.
    But what I wanted to highlight is that Jay has recently 
returned from a deployment to Operation Iraqi Freedom (OIF), 
where he served as the Director of Space Forces in the Combined 
Air Operations Center under the command of Lieutenant General 
Gary North. And this is where the rubber meets the road on air 
and space integration.
    And Jay was in charge and leading over 100 joint folks, 
bringing space effect to our warriors all over the Central 
Command (CENTCOM) area of operations (AO).
    And the true power that this integration brings is that, 
not only was he there bringing his expertise and the team of 
the joint fight there, he had the ability to reach back to 14th 
Air Force at Vandenberg Air Force Base California, where 
General Willie Shelton leads, as Dr. Kerr said, not only 14th 
Air Force, but the Joint Functional Component Command for Space 
that works directly for STRATCOM.
    And through that relationship, we bring space from the 
joint space capabilities directly into the air operations 
center and to the Joint Forces commander over there, now 
Admiral Fallon.
    It is a powerful linkage. Jay did a super job over there, 
and he learned a lot about air and space integration and he has 
brought that back.
    Currently over there, we have a colonel who had served for 
Dr. Kerr in a leadership role in the NRO--an airman who knows 
the NRO business very well, and he is over there now, bringing 
that integrated force forward.
    So, we are working and teaming together to make sure that 
we leverage all of our space capabilities and our support to 
the combatant commanders. And we do not just do it in CENTCOM. 
We do it for every regional combatant commander around the 
world.
    Today, I am proud to represent that team of airmen in Air 
Force Space Command that provide these capabilities day in and 
day out, to not only STRATCOM, but every combatant commander. 
Over 40,000 people--active duty, Guard, Reserve, civil servants 
and a tremendous contractor team that is in the fight with us, 
7 days a week, 365 days a year.
    And what are they bringing? They are bringing missile 
warning with our Digital Signal Processing (DSP) constellation. 
They are enabling missile defense by providing the first 
reaction and the first response for a launch against this 
country, not only with our space-based system, but with our 
radar systems.
    They are providing space surveillance with our electrical-
optical systems scattered around the world, as well as our 
radars and our one space-based satellite.
    They are providing critical position, navigation and 
timing--one of the things that Representative Everett said we 
have come to take for granted, not only in our society, but the 
way we fight--that is absolutely essential to the way we fight 
today.
    They are providing environmental monitoring to the Defense 
Meteorological Satellite Program. And as General Moseley says, 
men and women of Air Force Space Command are the backstop for 
our Nation's ultimate defense, as they stand strong every day 
with our intercontinental ballistic missile (ICBM) force in the 
northern tier states--always ready, always prepared.
    In the satellite communications area, our Defense Satellite 
Communications System (DSCS) constellations, our MILSTAR 
constellation, our global broadcast satellite system--all have 
airmen from Air Force Space Command's fingers on them. They are 
making sure that they deliver the capabilities that are 
required around the world today.
    And none of this happens without the professionals that we 
have in both the Patrick Air Force Base in Florida and 
Vandenberg Air Force Base in California, that take care of our 
gateways to space for America and launch those satellite 
systems into orbit.
    It is a team squarely focused on enabling the joint fight 
every day. To win the war today and, just as importantly, 
though, to prepare for future conflicts and make sure we stay 
strong and out in front as a nation.
    And you will see this reflected in the investments in this 
budget this year in just about every area that I have 
chronicled.
    In missile warning we are moving forward with the SBIRS 
constellation. In space surveillance, space-based space 
surveillance satellite program, as well as a new investment 
program in integrated Space Situational Awareness, which is 
very important.
    Position, navigation and timing, we are advancing the ball 
with GPS 2RM launches, 2F is coming on board, and we are laying 
the groundwork for GPS 3, that will provide critical capability 
to our warriors in the future.
    Strategic deterrence, from nosecone to rocket engine, we 
are upgrading the ICBM fleet, and it is going to be with us 
beyond 2025, because of the investments we are making today in 
that system. And we are providing a more secure system, because 
of the investments that we are continuing to make in our launch 
facilities.
    And in satellite communication is probably the most 
dramatic that we can think of, as we move to wideband global 
satellite launches this year, which in a single satellite will 
exceed the capability of the entire DSCS constellation, AEHF 
satellite and the TSAT program, which will be absolutely 
essential to keep us on the cutting edge in the future.
    All of these systems support our vision at Air Force Space 
Command to become the acknowledged experts and leaders in 
launching, fielding, and employing space power for America for 
the 21st century.
    To guide our investments along this path, we have four 
priorities that we stay focused on.
    First, we absolutely must preserve and expand our ability 
to deliver space effects to the joint fight. We stay focused on 
the needs of the Combatant Command (COCOM) today, not only the 
regionals, but the STRATCOM commander as he operates and 
defends our space assets. But we also are committed to look to 
the future, to make sure we stay out in front.
    Second, we remain focused on providing a safe and secure 
nuclear deterrent for this Nation. Of all the balls we juggle 
in Air Force Space Command, I remind our folks most of them are 
tennis balls that will bounce if we drop them. This is a 
crystal ball. We stay focused--very focused--on this 
responsibility.
    Third, we are committed to developing, fielding and 
sustaining dominant space capabilities for this country on time 
and on cost. And with SMC under our umbrella in Air Force Space 
Command, we are working to make sure we can do that, and are 
good shepherds of the taxpayers' investment.
    Finally, and certainly not least importantly but 
underpinning our efforts, we are focused on attracting, 
developing, training and retaining the expertise necessary to 
meet the challenges of the future. Our investments in the NSSI 
has been mentioned--the National Security Space Institute--our 
investments in education.
    It goes beyond that, though, and goes into examining 
policies for accessions. It goes into recruiting. It goes into 
getting young folks excited about joining Air Force Space 
Command. And I can't think of a more exciting place to work 
than this command.
    In closing, I would just, as our chief of staff has said in 
his testimony that, as he looks at air forces historically, 
where air forces across history have failed is when they have 
failed to correct slowly to declining relative capabilities.
    Our space capabilities are too integral to the fight today. 
We understand that. And we cannot allow adversaries to eclipse 
our asymmetric advantage, particularly as Dr. Kerr talked 
about.
    We realize the importance of investing today to get what we 
need for tomorrow. And we also realize we absolutely must be 
successful every day. And what we do is, we operate these 
systems for the fight.
    With your help, we stand ready to solve the challenges of 
the future. And I am honored, as I said, to appear before this 
distinguished subcommittee. I appreciate the great support you 
give the men and women of Air Force Space Command, and I look 
forward to addressing the questions that you put before us 
today.
    Thank you.
    [The prepared statement of General Chilton can be found in 
the Appendix on page 67.]
    Ms. Tauscher. Thank you very much, General.
    And, gentlemen, thank you very much for comprehensive 
submitted testimony and your verbal testimony.
    The committee is generally, obviously, concerned about many 
different issues, but what we are looking at is to have a sense 
of the scope of the opportunity to improve security and 
awareness of our assets on-orbit.
    And I think that we are looking at and questioning and 
pushing to find out what kind of seams we have, both 
institutionally and in space, because our responsibility is to 
the warfighter.
    Our responsibility to protect the United States, our 
citizens, our assets and our allies is significant. And in 
partnership with you, we feel as if we have not only great 
Americans in the Joint Command working very hard, but as Dr. 
Kerr mentioned and as Dr. Sega has mentioned in the past, too, 
we have some of the finest scientific minds.
    And how do we make sure that we have both the kind of 
operational institutions, the kinds of flexibility, the kind of 
robustness we have in our institutions that do not leave us 
either with seams in the institutions or eventually seams in 
space?
    So, I guess the question that I have to begin is, are we 
investing enough in Space Situational Awareness capabilities 
that are needed to deter and defend and recover from possible 
threats against our safe assets and their related ground 
infrastructures?
    What are the greatest needs we have in these areas?
    And how do you see the organizational roles and 
responsibilities being divided or shared, both during creation 
of architecture, development of the concept of operations and 
the fielding of capabilities?
    And I think that should go to you first, perhaps, Dr. Sega, 
but I would be interested in both of you, General Chilton and 
Dr. Kerr adding on if you can.
    Dr. Sega. First, that is a very important question.
    We lay the foundation for some of the options, starting in 
2001. And at that time, I was director of defense research and 
engineering.
    And we made a conscious effort in the science and 
technology foundation to increase the investment in space, and 
increase it in the area that includes Space Situational 
Awareness and protection.
    And the budget doubled in space, and it was around a half-
billion a year, and went to over $1 billion a year. And we are 
now seeing the results of that investment in terms of the 
capability to do such things as Space Situational Awareness.
    The TACSAT-2 experiment satellite launched in December is 
one example; XSS-11 is also another example.
    But in terms of providing a sensory capability and bringing 
it together and making it make sense, I think the foundational 
pieces are coming into play.
    So, we have been, I think, in the correct direction. The 
question is, have we gone fast enough at this point, knowing 
what we know now to provide that.
    We also have in the National Space Policy, situational 
awareness is clearly brought up, where the roles of the 
Department of Defense and the intelligence community are laid 
out, and the importance of Space Situational Awareness is 
there, as well.
    It includes not only a terrestrial component, but a space 
component. So it needs to be viewed as a system.
    And more and more, as we look at space in general, all the 
parts should also be participating in our increased awareness 
of what is in space.
    As we put the budget together, we looked at continuity of 
service and made sure that we had those key areas. Missile 
warning, strategic communications and position, navigation and 
timing were examples I gave there. There are others.
    And so, we have laid out a direction that is good. We also 
said that there were additional dollars available, and that 
Space Situational Awareness was our first choice, and that in 
that list of self-awareness, Space Situational Awareness was on 
top of that.
    Some of the activities that we have in the budget, it would 
be possible to accelerate those, but I believe our direction 
was solid. Our foundation has been laid.
    And I will at that point turn it over.
    General Chilton. Thank you.
    Madam Chair, first of all, I think one place where we do 
not have a seam for sure, is a clear understanding of the 
combatant commander's role and responsibility in this. And 
General Cartwright, who we merged U.S. space into STRATCOM and 
called it STRATCOM, it still has the U.S. space mission in 
there. And he appreciates that and he is leading that effort.
    One of the great things that has happened this past year is 
the standup of JFCC-SPACE as a separate command. I had the good 
fortune to be the previous JFCC-SPACE and Global Strike 
commander.
    And so, I have been paying attention to the needs of 
General Shelton out at 14th Air Force for well over a year, and 
asking what it is that we need, what do you need as your number 
one priority. And it has been improved Space Situational 
Awareness.
    It is a fundamental thing that every commander--land, sea 
or air--needs first before you do anything else. You need to 
understand the environment, who the good guys are, who the bad 
guys are, who the neutrals are, and then what people are doing 
in that environment.
    One of the key elements in that, if something goes wrong, 
is to be able to attribute what caused the malfunction. So, if 
it is a mechanical malfunction or an electrical malfunction 
with a satellite, you need to know that. If it is something 
caused by the space environment that you operate in, you need 
to know that.
    And if someone is messing with your satellite, you need to 
know that and be able to attribute it fast.
    And so, these are kind of the key elements of Space 
Situational Awareness.
    Recognizing this need, even last fall as we were working on 
the budget and we laid in the integrated Space Situational 
Awareness line, and those are the beginning steps as we start 
to meet the needs of the combatant commander, as represented 
through General Shelton.
    Some of the steps we have also taken is to integrate the 
first space control squader, now in his command and control 
facility out in Vandenberg, and break some of the linkages that 
we had with the Cold War mentality of how we surveilled space, 
and allow us to upgrade systems like our Space Defense 
Operations Center (SPADOC) computer, that was designed and 
built in 1991, and it is still operating today.
    We need to move that technology forward and give General 
Shelton the tools he needs.
    Besides that, I would say the other challenge I put before 
our Space Command team--and this kind of goes in line with what 
Dr. Kerr talked about, how his satellites--a lot of his 
satellites were designed to address a Cold War threat. The same 
with our space surveillance systems that are set around the 
world today, both our radars and optical systems.
    I have challenged our team at Air Force Space Command to 
take a clean-sheet look at the future. How would you lay this 
out, given what we know today? It is not just a Soviet threat 
we are worried about. There are other potential threats, many 
more players in the domain, a lot more debris.
    How would you lay this out? And we are well into that work 
right now to lay out our future needs.
    The final thing I would say is that, as we look at all the 
investment programs, including improving the fusion capability 
of data that we have coming in today, we are taking some 
operations and maintenance risk to pay some of those bills.
    And that might be an area where we have to keep our eye on 
it and could use some help in sustaining our current levels as 
we implement new systems to take us to the point that we need 
to be.
    Ms. Tauscher. Dr. Kerr, do you have anything to add?
    Dr. Kerr. Just a couple of points to supplement what you 
have heard.
    We have been operating in space under threat for many, many 
years, starting with the co-orbital ASAT fielded by the Soviet 
Union.
    Protection is part of our programs traditionally. It is 
getting even more emphasis today. We look at things like how do 
we distribute value differently, in order to be more robust.
    At the operating level, we are very well integrated with 
what General Chilton just talked about. As I mentioned earlier, 
we provide the deputy commander for JFCC-SPACE.
    Importantly, the JSPOC--the Joint Space Operations Center 
in California--is linked to our NROC and their backup 
capabilities for each other. And we have recently expanded our 
facility and re-equipped it for that responsibility.
    Importantly, we started out working closely with Space 
Command, because to some great degree they have had clear 
responsibility in this area for developing capabilities for 
space surveillance--SSA, if you will.
    To that team has come STRATCOM. And so, the three 
organizations are working very closely on how different 
capabilities can be linked to deal with today's problem, rather 
than yesterday's problem, and will continue to do that.
    Ms. Tauscher. Thank you.
    Happy to yield to the Ranking Member, Mr. Everett.
    Mr. Everett. Thank you, chairman.
    What are our gaps in SSA? Clearly, we need to know the 
Chinese ASAT--we need to know who did that, when they did it, 
that kind of thing.
    Do you see any gaps that we have in Space Situational 
Awareness?
    General Chilton. Representative Everett, if I could take 
that one on.
    We have a satellite airborne now called the Midcourse Space 
Experiment (MSX) satellite. It was put up as an experiment to 
actually look at others things. The technology is back in the 
late 1990's.
    What we found as we operated that satellite, is that it had 
a great capability to surveil the geosynchronous belt and help 
us in keeping track of objects out at great distances from the 
Earth.
    The radars that we have today do a pretty good job of 
surveilling in the low-altitude orbital environment.
    As we look to the satellites in the higher altitudes, we 
find that there is an area that I think we need to continue to 
focus on improving our capabilities, which is why the space-
based space surveillance system, which you will see in our 
budget this year, is--and has been in the past--is so important 
to us to get airborne on time, because MSX is starting to fade 
in its ability to continue to do its mission.
    So, I would say we need to expand--continue to expand--our 
focus on space surveillance, not only to the low-altitude areas 
where we clearly have seen that we are vulnerable, but also to 
the higher altitude areas and beyond. And this is an area that 
we are focusing on.
    Dr. Sega. And consistent with the need to have SBSS, the 
space-based surveillance system, to be in space, we have 
approached it in the same manner, in this block approach.
    So we are not taking on too much in the first block, block 
10, and getting capability on-orbit with confidence in terms of 
our schedule, and the resources needed, and then moving on to a 
block 20. It is for this need, applying the approach so the 
acquisition cycle time is reduced.
    Mr. Everett. Anything to add, Dr. Kerr?
    Dr. Kerr. Just one point. If there is any area where there 
is a clear gap, it is good intelligence about what other 
countries are doing relative to space control and space 
surveillance.
    And over the years, some of that capability, particularly 
on the analytic side, has diminished substantially. So, 
building hardware, building concept of operations (CONOPS), 
absent some better foundation of understanding of what we are 
building them for, is a risky thing. And that part needs 
attention, too.
    General Chilton. I would echo those comments, sir.
    And in line with the question you had asked earlier about 
intelligence and what we are doing on that, I think in the Air 
Force, with General Deptula taking over the A-2 and increasing 
that to a three-star level function, I have had many 
discussions with him about the importance of focusing our 
intelligence again to the heavens, as we did during the Cold 
War.
    After the Cold War ended, we took down a lot of that 
capability, because the threat had gone away. And that 
capability I am mostly talking about is the human capital that 
we had paying attention to intelligence analysis of the space 
environment.
    And we are starting again to build--and it will take time--
that expertise, both in the Air Force at National Air and Space 
Intelligence Center (NASIC), as well, and also, in our 
management of the space cadre, which was another question you 
asked earlier.
    My intention is to expand our management and oversight of 
that beyond just our space operators and our acquisition 
professionals, but to also include intelligence and 
communications specialists in our Air Force, and make sure we 
are tracking their growth and make sure we are growing the 
right intelligence expertise we need for today and tomorrow, as 
well as the right communications expertise we need to support 
our space endeavors in the future.
    Mr. Everett. I appreciate that. I hate to see so many of 
our young people coming out of the academy who want to be 
pilots and spend a great deal of their time--the rest of their 
life, maybe--piloting a Global Hawk rather than get in an 
aircraft.
    Anyway, SATCOM. This year we buy about $400 million from 
commercial satellites to do communications. And about 80 
percent of our Iraqi Freedom military SATCOM requirements come 
from commercial.
    Would you explain all that and how it concerns with down-
the-road TSAT, and more quickly, the Advanced Extremely High 
Frequency (AEHF)?
    General Chilton. Yes, sir.
    Mr. Everett. And also, I think the Advanced Extremely High 
Frequency would give us 100 times more than we get now?
    General Chilton. Ten times, sir.
    Mr. Everett. Ten times.
    General Chilton. Ten times.
    Mr. Everett. And TSAT?
    General Chilton. About another 10 times, so close to 100.
    So, you are right. The demand, the need for global 
satellite communications, particularly force secured to support 
our warfighters, continues to grow.
    And we recognize those requirements. We are listening to 
the users out there who are demanding them.
    And that is why it is so important to field the Wide-Band 
Global System that, as I said, one satellite will replace the 
capability of the entire DSCS constellation, and AEHF, with 
about a 10-fold increase in capacity and capability over 
MILSTAR, and the TSAT.
    With regard to your comments on the 80 percent, the fact 
that today about 80 percent of our satellite communication is 
leased, again, this is under the COCOM's purview and how that 
is managed.
    But it is not something that I think you want to ever drive 
down to a zero number. And I like to use the analogy of the 
civilian reserve air fleet that we have, the CRAF, and how we 
utilize that for airlift in crisis.
    Day in and day out, we have relationships with the 
airlines, that they are flying their airlines supporting 
civilian traffic.
    But you will notice, when we get to crisis and the time 
comes, we activate the CRAF and we bring them on board. And you 
will see most of our soldiers, sailors, airmen and Marines 
deploying to theater in DC-10's. And you will see them going in 
747s that are part of the airline industry.
    I kind of in my mind equate the balance that we have to 
strike with military capabilities, just like we have military 
transport in the CRAF. On military satellite communications, we 
have got to make sure we size it right for what you have got to 
have to fight. And it is nice to have a flex capability, where 
you can utilize the commercial satellite industry where you are 
able to.
    But back to your original point, the growth in demand is 
increasing for secure and protected satellite communications 
for our warfighters. And that is why it is so important to stay 
the course on these new satellites we are developing and 
launching today.
    Dr. Sega. If I could continue on that.
    The commercial satellite providers are important to us. It 
is part of a balance, and I hope optimized push going forward.
    We have a commercial SATCOM CEO meeting annually. And we 
had that recently. And so that we are better able to work with 
them and share information and so forth.
    But communication does come, as General Chilton said, in 
different forms and for different reasons. Commercial folks can 
provide part of it, and we provide some of the upcoming 
wideband communications with WDS--Wideband Global Satcom--
system. And that will be launched this summer. And it is 
another program that is meeting those milestones.
    It is ready to go and we are looking at the launch vehicle 
now and putting that part together and getting the first WGS 
out here in the summer, and then six to nine months later the 
next one and then finally the next one.
    And we also executed the contract on widebands four and 
five over the last year. So, that is the wideband part.
    But this protected communications base is MILSTAR and then 
AEHF and then to TSAT.
    And TSAT approaches the problem in a different way, a 21st 
century way. It not only will do the protected piece, but will 
also serve our many, many users that want this capacity through 
an Internet protocol based--a network, if you will, in space.
    And so, we have a processor router on that. We communicate 
it at high bandwidth that the users are needing with lasers as 
we move forward. And there are also the high-band needs of our 
platforms that need ISR.
    So, strategic communications, the Internet-based protocol 
for multiple users in that high bandwidth is what we are going 
for with TSAT.
    And so, we have it broken down. We are doing the technology 
maturity in a methodical way in a block approach to provide 
21st century capability, and staying in tune with the 
industrial base.
    If we would go back and do an AEHF-4, for example, the 
parts--there is a parts obsolescence and non-recurring kind of 
engineering as you move forward in time. Especially in the 
communications area, the rate of change is high.
    And so, to tap back into an industrial base with something 
that is from the past, we have to assess it and see how much it 
is really going to cost, as in some pieces you are starting 
over, because the parts are no longer available, or the design 
is not appropriate as we go forward.
    So, that is a balance. And we have looked at that pretty 
carefully.
    Mr. Everett. I understand it is both the commercial and DOD 
for our current military communications with SATCOM. But do we 
need that much of a reserve? Do we need to continue spending 
$400 million a year? Or is there some magic number below that, 
so we can keep a healthy commercial capability out there?
    General Chilton. Sir, I do not know the answer to what the 
right balance is, economic from a business case is.
    I think we do need to have participation from the 
commercial satellite industry. I think that is healthy that we 
utilize that.
    And again, I would reiterate the point that we do need to 
pay attention to the specific military requirements that are 
needed by Army, Navy, Air Force and Marines, and how we bring 
those capabilities to bear through our secure and protected 
satellites in the bandwidths that Dr. Sega has talked about.
    Mr. Everett. Thank you, Madam Chair.
    Ms. Tauscher. Thank you, ranking member.
    At this time I am pleased to yield five minutes to the 
gentleman from Iowa, Mr. Loebsack.
    Mr. Loebsack. Thank you, Madam Chair.
    I just have some--I guess I want to pursue this question of 
intelligence a little bit. I mean, this is a request for--this 
is a budget hearing. And you all know that we are in a highly 
constrained budgetary environment at the moment, have been for 
a number of years.
    I am new to the Congress. One of the first things I learned 
when I got here budgets here are strapped--was just how 
constrained we are at the Federal level.
    And I would be asking the same kinds of questions, I guess. 
But do we really need what people are asking, whether I was on 
this committee or a committee having to do with domestic, 
whatever the case may be.
    But I have stated before that, for me at least, we have got 
to line up whatever it is that we are going to be spending, or 
expending, on the military with the threats that are out there.
    And correct me if I am wrong, but what I got from what you 
just said a little while ago was that we have real problems 
with intelligence in terms of whether we have enough 
intelligence--human capability, in particular, you mentioned--
to determine exactly what those threats are out there.
    And I guess, I do not know that you can give me any kind of 
numbers, but I have a real concern that we develop weapon 
systems for which there are no threats, because that would be a 
waste of our money, obviously, if that were the case.
    How confident can we be that, you know, what you folks want 
to do in fact will be directed toward threats, given the 
concerns that you have all expressed about our intelligence 
capabilities?
    How also--I guess, what are the chances that we do not know 
what some of the threats are, and therefore, we are not 
providing you enough in that sense, to take care of the threats 
that we do not even know about perhaps?
    Whoever wants to take that on.
    Dr. Kerr. Well, since I was the first of the three of us to 
raise it----
    Mr. Loebsack. Yes, you were. You were. Thank you.
    Dr. Kerr [continuing]. Let me take the first cut.
    From my own experience, I know how far, particularly in the 
all source analytic world, we have gone from capabilities that 
existed 10 to 15 years ago in terms of numbers of analysts, to 
what we had a year or so ago and they are now starting to build 
up from.
    But I guess, to put it in numeric terms rather than a 
headcount, which I cannot do, we probably went to a point of 
having probably ten percent of what we once had in the area of 
looking at threats to space systems.
    As General Chilton properly pointed out, NASIC remains a 
strong capability focused largely on the military intelligence 
side of it. Where it has fallen down substantially is in the 
all source end of it.
    It also would be unfair of me not to point out that your 
colleague, Mr. Reyes, hears this in quite a different setting, 
and it is a concern that has been broadly expressed.
    Mr. Loebsack. Anyone else?
    General Chilton. I did not want to characterize that there 
was a deficiency in our knowledge of the threats. I think we 
are pretty understanding of the threats.
    It was a deficiency in the human capital and focus we have 
put there. That is just a reality, as Dr. Kerr pointed out, as 
a result of our drawdown after the Cold War.
    It is a new day and we need to be looking forward and 
growing the right expertise as we move forward in this area, 
and putting the focus on it that it deserves. And I am 
confident we are doing that. But this is not something you fix 
overnight.
    Dr. Sega. But from probably a perspective looking out a 
little bit further, one of the things we can guarantee, I 
think, in the 21st century is, the rate of change of technology 
will increase. The technology will be available around the 
word.
    And so, with that rate of change, we also have to look 
forward and make sure that we understand that and we also stay 
on the leading edge and we provide options as we go forward.
    And so, one of the areas that we intend to have to move 
quickly and have agility and provide some of those options is 
the ORS, with some of the smaller satellite activities that we 
will kind of understand the technologies, with their 
opportunities to see how they work.
    We will also give ourselves potentially additional options 
going forward in terms of operations. But we are at the 
beginning stage.
    We are also recognizing we are in an environment that is 
going to have a high rate of change going forward.
    Mr. Loebsack. Thank you very much. I will yield back the 
rest of my time.
    Thank you, Madam Chair.
    Ms. Tauscher. Thank you, Mr. Loebsack.
    I am happy to yield to the gentleman from Arizona, Mr. 
Trent, five minutes. Mr. Trent? Franks. [Laughter.]
    Mr. Franks. I get that all the time. Thank you.
    Well, thank you, Madam Chair. And I thank all of you for 
being here, as always. You know, you are our front line of 
freedom, and we appreciate you very, very much.
    I know that General Obering is not here, but any time that 
you have the kind of success related to missile defense or the 
Air Force's participation, as you did last week in the ABL 
test, that is a cause for celebration for everyone. And so, I 
congratulate you in that regard.
    General Chilton, I think that I want to, if I can, take a 
little page out of the chairwoman's book here and just revisit 
the critical nature of what you do to give us Space Situational 
Awareness, because I know that there are some differences of 
opinion in this committee in terms of priorities on how to go 
forward in a lot of areas.
    But the one thing that should be a common commitment on the 
part of all of us, is to know what is happening in our world. 
To know who might be a potential adversary, to be able to 
prevent misunderstandings--to know what is happening is 
critically important.
    And I just believe that anything that we do will have as 
its foundation much of what you are doing. And so, I guess, if 
I could ask you, if there was any one thing that this committee 
could do to ensure that your effort to give us a good picture 
of what is happening in the world and Space Situational 
Awareness, what would that be?
    General Chilton. Thank you, sir, and thank you for your 
support for the men and women of Air Force Space Command.
    It would be sustaining our investment in the path that we 
are on today.
    We identified, as I mentioned with my experience as JFCC-
SPACE, this need and deficiencies more than a year ago. And we 
have laid them into the funding streams now.
    It runs the gamut. It runs the gamut from the intelligence 
side so that we can be predictive and we have got the right 
analysts, to the data collection side, which are our sensors 
that we deploy around the world and in space, like the space-
based space surveillance systems, to taking that data and that 
information and bringing it into General Shelton's Joint Space 
or Operations Center and fusing that, so he does not have to 
look at spreadsheets to fuse things in his brain, but we 
present that data correctly, so that he can quickly make 
decisions and provide good advice and counsel to General 
Cartwright as the combatant commander for operations there.
    It will also, this situational awareness, help us better 
support regional warfighters around the world. So, in the 
integrated Space Situational Awareness program which we have in 
this budget, will help to take the data that we bring in and 
fuse that in a fashion in our command and control center that 
General Shelton has.
    And it does not stop there, sir. It goes right--and once 
you are smart, now you have got to be able to command and 
control your forces. And we have investment planned in those 
areas, too, so that he can send his orders out and the folks 
that operating the systems out in the field can respond to them 
in an appropriate fashion.
    But it runs that gamut.
    Mr. Franks. Well, thank you, gentlemen. Your cooperation 
with the intelligence community and all the other people that 
you have got to interface with is pretty much a model for the 
services, and certainly for the U.S. Government in general, and 
we appreciate that very much.
    Dr. Sega, I know you have seen the bumper sticker a lot of 
times in your business, that one nuclear blast can ruin your 
whole day.
    And we appreciate very much that you are trying to figure 
out ways to prevent that from ever being something that we 
would see come to reality.
    And I know that your challenge oftentimes is to make sure 
that we are investing in the kind of systems that will provide 
deterrent to nations in the future, like China, so that they 
decide not to build certain, perhaps offensive capabilities 
against us, simply because they do not think it is a good 
investment anymore, and also, the ability to have a tactical 
response, if something really does occur.
    So, I ask you the same question. What can we do in this 
committee to be able to continue to equip you to do both?
    Dr. Sega. Sir, let me answer it from the perspective of the 
space systems, and then I will hand it off for probably a 
broader look.
    One of my roles in the past was the chair of the Radiation 
Hardened Oversight Council, the RHOC, as the director of 
defense research and engineering, when we looked at paths 
forward for providing radiation-hardened components.
    In our protected systems that we are counting on, we do 
provide our requirements and we design and build the systems 
with rad-hardened components, such as the strategic 
communications--MILSTAR, AEHF and then TSAT--and things like 
missile warning for SBIRS-High.
    So, we are increasing the capability of our systems to 
operate in these environments.
    In addition to that, looking at an option for more rapid 
reconstitution, and that goes to a bit on the ORS effort, 
potential future capability of reconstitution.
    And so, we have efforts in providing protection on the 
satellites, as well as to look at options for potential 
reconstitution. And we hope it never, of course--that never is 
needed.
    General Chilton. I would just say, sir, as I mentioned 
earlier, we are taking some risk in our sustainment of our 
current systems out there in our O&M. And that would be an area 
that we could use some help on.
    You know, we have talked about missile defense, the first 
alert for missile defense is the Air Force Space Command's 
systems that we deliver with DSP, now SBIRS, within our mid-
course tracking as provided by our radar systems and the 
upgrade of those systems that are so important to us. And 
sustaining those systems are very important to us, as well.
    Thank you, sir.
    Mr. Franks. Thank you.
    Thank you, Madam Chair.
    Ms. Tauscher. You are welcome, Mr. Franks.
    I am happy to yield now five minutes to the gentleman from 
Texas, Mr. Reyes, who is also the Chairman of the Intelligence 
Committee.
    Mr. Reyes. Thank you, Madam Chair.
    And thank you, gentlemen, for being here.
    I think Dr. Kerr and I have seen each other every day this 
week in some form or another, and mostly working on issues of 
this type.
    It occurs to me as I sat here listening to both your 
testimony and the questions, you know, everything that we do in 
this arena is so expensive. And one of the fundamental concerns 
about this investment is that it may not be balanced to what 
should be the biggest priority.
    Being a nation at war right now, the overriding priority is 
getting intelligence to the warfighter.
    There are some that are concerned that, as we invest 
heavily in our ability to continue a space presence, and 
certainly the threat against our assets after the Chinese ASAT 
is of concern to all of us.
    But is our portfolio in balance in terms of supporting the 
warfighter? Because it appears that it is overly weighted 
toward transformational issues and our long-term policy to be 
able to maximize our presence in space.
    But, again, in your opinion, are we in the right balance, 
or are we in an imbalance at this point in time in what should 
be our primary priority, and that is giving the warfighter the 
kind of intelligence that they need in combat?
    General Chilton. Well, Representative Reyes, first of all, 
it is good to see you again, sir.
    Mr. Reyes. Please. Good to see you.
    General Chilton. If I could, I am going to defer some of 
the intelligence portions of your question to Dr. Kerr.
    But I think, if we look back from 1991 and Desert Storm to 
where we are today, and how we conduct combat operations today 
in the global war on terror (GWOT) and in any contingency to 
include such things as hurricane relief and disaster in the 
United States of America, and our country, we have become very, 
very dependent on the capabilities that we bring from space 
today to conduct those operations.
    I love the story that General Dodgen used to tell about 
asking the young soldier, do you need space today to fight? And 
the story is, he says, no, all I need is my rifle, my box of 
ammunition and that little black box over there that tells me 
where I am.
    Mr. Reyes. Right. [Laughter.]
    General Chilton. Well, that is a perfect example of just 
how we have taken space and made it a part of our fabric, 
whether it be position, navigation and timing, which has found 
its way into not only just telling you where you are at, but 
also into the timing that is critical to the operation of our 
communications systems, our Nation's banking systems, et 
cetera, let alone the economy.
    When we look at global communications, the Global Hawk, the 
Predator--all these things that are in the fight today that are 
providing real-time intelligence to the warfighter in the field 
and are helping them find IEDs and helping them to accomplish 
their mission today--they all rely on satellite communications.
    And what they are screaming for is more of that capability. 
And that means it is going to require more satellite bandwidth 
to support.
    Most folks do not think about that other step that is 
required to do that. So, I think we are on the right track 
there in the communications growth that we have in the program 
today and in moving forward on GPS constellation.
    Missile defense--if you talk to the combatant commanders 
over in Korea today, and you ask them how worried they are 
about the North Korean threat and their missile arsenal over 
there, and in other AORs, too, you will find how focused they 
are on early warning and detection and tracking of those 
threats. And that is exactly where we are spending our capital 
in regards to upgrading the DSP program to the SBIRS program.
    So----
    Mr. Reyes. If I could interrupt you, because that is an 
important point.
    As we deal with the transformation process, particularly in 
the Army for Future Combat Systems (FCS), is that what the 
combatant commanders are telling you? First of all, what they 
need on the short term, what their vision is for long-term 
support from space.
    I am kind of curious, because I think they are all related.
    General Chilton. They are, sir.
    They have short-term needs, and we are delivering those 
today with our space capabilities, but they have long-term 
needs, too.
    And the growth in airborne ISR, the growth in Space Radar 
as that comes along onboard, which they are all asking for and 
requiring, and the data rates that will be required to support 
that will require increases in our satellite communication 
constellations.
    And the com-on-the-move requirements of SCS that you 
brought up, and the vision the Army has for how they will build 
and communicate in the future on the battlefield is an 
important part of the transformational satellite system, TSAT.
    So, we are chartered not only to look at, and we pay very 
close attention today in our flexibility and how we support 
today's fight. But we have to be looking to the future, as 
well.
    And as I said before, I think all the things we are 
investing in have become so much a part of the fabric of the 
way we fight and the way we think about fighting in the future, 
that we have a good, balanced investment in this area.
    Dr. Kerr. Let me follow-on, on another piece of the answer 
to you, Mr. Reyes.
    I mentioned earlier the fact that we are now supporting 
real-time warfighters on the ground. The even better part of 
that is that we have been able at some of the ground facilities 
to bring overhead collection capability together with airborne 
collection capability and make that immediately available.
    One way to dramatize it for you is that I have seen a young 
operator with national feeds available, UAV feeds and manned 
airborne feeds with 20 chats open simultaneously to people on 
the ground in Iraq.
    And so, this linguist was adding value to the feeds, and 
then she was passing it on immediately to those who could use 
it on the ground for either targeting or protection.
    Dr. Sega. And if I could add one further point.
    As was mentioned by General Chilton, the needs today that 
come from space, such as from GPS, the position, navigation and 
timing aspects and communications, those satellites do not live 
forever. And we do not have an option in space to have a depot 
to put another wing or new engines, or something, on the 
system.
    And so, there is a continuity of service that we need to 
consider. And GPS, as I gave the example earlier, sustains the 
constellation.
    We currently have 30 satellites in there. And that number 
helps--those numbers of satellites--for folks getting a signal 
in an urban environment and in a canyon.
    But many of the satellites are quite old and they need to 
be replaced. We need to replace it with what is available with 
technology, and also address some of these new needs.
    The folks on the ground need a GPS system to operate, and 
anticipating some jammed environment--that occurred a bit in 
OIF. And so we add power, principally for the folks on the 
ground in terms of anti-jam with the next generation GPS.
    But continuity of service for continuing that today into 
the future is clearer, I think, from PNT and communications, as 
well as missile warning and along with that, a more capable 
satellite that will help the battle space characterization and 
tactical intelligence, as well.
    Mr. Reyes. Thank you.
    Thank you, Madam Chair.
    Ms. Tauscher. Thank you, Chairman Reyes.
    I am happy to yield five minutes to the gentleman from 
Ohio, Mr. Turner.
    Mr. Turner. Thank you, Madam Chair. I want to thank you for 
your continued efforts in this committee. I have enjoyed 
working with you.
    Ms. Tauscher. Thank you.
    Mr. Turner. And the amount that we are learning is a great 
deal of help to all of us.
    Dr. Sega, Dr. Kerr, General, I want to thank you for your 
work, knowing that your importance in trying to maintain and 
grow our superiority, and also the important issues of having 
to defend what is a significant strategic vulnerability of 
ours.
    When you look at our vulnerability for space assets, I 
liken it somewhat to a cookie jar that you put on the top 
shelf, only your adversary keeps getting taller. You keep 
having to determine what height and what location you need to 
place the cookie jar in order to defend it.
    And in looking at that, it seems that intelligence, 
obviously, is an important theme throughout everything that you 
are undertaking, especially in the area of defending our space 
assets.
    And I wondered if you could speak for a moment--and I have 
a follow-up question to this--on the adequacy of the 
intelligence that you are currently receiving, whether or not 
you believe that the intelligence is currently sufficient for 
the countermeasures that you may need, and whether or not this 
is an area where, in order to develop our defensive measures, 
that you need more intelligence in support.
    General Chilton. Sir, we have talked a little bit--thank 
you for your question--we talked a little bit earlier about 
where we are and where we need to go with regard to our 
analysis and ability to analyze intelligence and focus in this 
area.
    Now, perfect intelligence never exists. Ultimately, what we 
are after is not only determining capabilities of a potential 
adversary, but also intent. And that takes a lot of study and 
time.
    And there has been some recent activities that we are all 
aware of that makes one wonder what the true intent of people 
are when they do that. And it is in this area, in particular, 
that as we grow our intelligence expertise and focus in space, 
that will be very beneficial to us as warfighters to understand 
that--not only capabilities, but intent.
    Mr. Turner. Dr. Sega, I know that in some of the briefings 
that we have had, you have called on NASIC at Wright-Patterson 
Air Force Base to help provide us information about their work.
    And I have grown increasingly concerned that the Defense 
Intelligence Agency, DIA, is looking at actually lessening or 
diffusing the amount of resources that might be available.
    We have a limited amount of resources, and instead of 
bolstering them, if we look at dividing them, our effectiveness 
can be diminished significantly.
    So, my question to you and to others is that--you know, my 
understanding is that NASIC has, with the resources that they 
have, has been a very high performer.
    And do you have concerns as to whether or not we are 
meeting the needs at the level of support that we need for 
intel?
    Dr. Sega. I can only address it from my perspective of my 
interaction with NASIC. And they are doing an outstanding job 
and very, very professional.
    With respect to the interaction with the DIA, I would like 
to refer that to them, if I could. But we are in full support 
of the information and the work and the folks that have been 
providing that for us. And that helps in terms of understanding 
the investment portfolio going ahead, is the information you 
have and the intelligence.
    So, they have done a great job from my perspective. And I 
would either refer to someone else for the answer now, or take 
it for the record to go into your question further.
    Mr. Turner. Sure. Are there others who would like to 
comment?
    Dr. Kerr. I would echo the support for the work that 
NASIC's done. It has been outstanding.
    General Chilton mentioned the issue of intent. And nothing 
has dramatized the problem we have with that more than the 
Chinese ASAT test, where it may appear, based on the public 
information that even the Chinese Government itself had 
different arms with different intent.
    And so, that is where the all source analytic capabilities 
of DIA and CIA become so important. And that is really where we 
need to focus some attention.
    General Chilton. Sir, if I could just add, one area where 
we do have control in Air Force Space Command and, I think, 
great influence on the Air Force. One is with the A-2, General 
Deptula as I mentioned before, he is increasing resources 
focused on space intelligence for the Air Force.
    Additionally, though, as I mentioned earlier, as one of our 
key rules in Air Force Space Command is making sure we have the 
right talent in the Air Force Space Command for the future.
    And you look at General Shelton and he is running an air 
operations there in Space Operations Center there out at the 
JSPOC at Vandenberg Air Force Base.
    And a critical element of his decision-making and 
supporting the warfighter, General Cartwright, is rooted in his 
intelligence shop and division out there and the work that they 
do.
    And we are starting to pay attention now how we raise 
intelligence officers in the United States Air Force in a 
fashion that, when they achieve the rank of colonel or 
lieutenant colonel, or as an analyst, we want to raise them 
specifically to go into those areas to support space. It does 
not mean they will spend the whole time in space.
    But if we have got someone that is passing through and has 
had an opportunity to study and be an intel analyst in space, 
today we do not capture that very well in our assignment 
process, and we are working to fix that and bring them into a 
career-wide management to make sure General Shelton has what he 
needs to support his operation as the JFCC-SPACE.
    Dr. Sega. And just one last point. The value we see in 
NASIC is so high that we have them come in monthly and present 
topics for our community here in the Washington, D.C. area. So 
they come back on a monthly basis, at least, and work through 
topic after topic.
    Mr. Turner. Thank you, gentlemen.
    Thank you, Madam Chair.
    Ms. Tauscher. Mr. Turner, I just wanted to let you know 
that your support for NASIC is a committee support. We 
appreciate that your advocacy is on behalf of what could be 
seen as a parochial interest, but it is a committee shared 
support.
    And Mr. Everett, who also sits on Intel, I have just talked 
to Chairman Reyes about doing a classified hearing on all 
source. Perhaps Dr. Kerr and others would be involved in it.
    But we do have a crossover between our subcommittee 
responsibilities and had two responsibilities in this area, so 
we will be scheduling a classified briefing as soon as we can 
get it up on a calendar.
    Thank you for your interest and your support.
    Dr. Bartlett has joined us, and we are happy to see him. 
Dr. Bartlett is a member of the full committee, and I think he 
has a question.
    I am happy to yield you five minutes.
    Mr. Bartlett. Thank you very much for permitting me to join 
you.
    Ms. Tauscher. Of course.
    Mr. Bartlett. Gentlemen, welcome.
    Dr. Sega, good to see you again.
    When the Electromagnetic Pulse (EMP) Commission questioned 
two Russian generals, they told the Commission that the Soviets 
had developed, and the Russians now have, EMP-enhanced weapons 
that would produce 200 kilovolts per meter at the centers, 
which would be about 100 kilovolts per meter at the margins of 
our country, and, of course, equivalent intensity in space.
    If this is true, can you tell us in this setting if our 
MILSTAR satellites would survive this radiation?
    General Chilton. Sir, I do not think this is the 
appropriate setting to discuss capabilities and/or 
vulnerabilities, specifically. But I will say that our MILSTAR 
satellite system and the AEHF systems are designed to provide 
the communications that the President needs in time of nuclear 
conflict.
    Mr. Bartlett. Beyond these fairly limited systems intended 
for command and control, essentially, what other space assets 
do we have that are EMP-hardened?
    Is the answer ``little or none''?
    General Chilton. Well, we certainly work to harden the 
secure communications that were required to conduct those type 
of operations in a nuclear environment--nuclear war--as you 
have alluded to, sir.
    Mr. Bartlett. What percent would you say of our total 
military communications moves over EMP-hardened satellites?
    General Chilton. Sir, I would have to take that question 
for the record.
    [The information referred to can be found in the Appendix 
beginning on page 104.]
    Mr. Bartlett. Is it something like the five percent level 
or less?
    General Chilton. Again, sir----
    Mr. Bartlett. Would that be a fair----
    General Chilton. I would have to take that for the record, 
sir. But we will get an answer for you.
    Mr. Bartlett. Dr. Sega, you mentioned that we have plans to 
reconstitute in the event that we lost satellites.
    If we lost our satellites as the result of an EMP event, it 
is my understanding that all of the unhardened satellites--
which essentially is all of the satellites, except the few that 
were mentioned--would be gone from prompt effects if they were 
line-of-sight, and the other satellites would decay quickly as 
a result of the Van Allen Belts being pumped up--which if, in 
fact, the Russian generals are correct, that they have a weapon 
that would produce 200 kilovolts per meter, would be quite some 
enhancement of the Van Allen Belts.
    The only way we could really reconstitute, then, would be 
with EMP-hardened satellites, would it not? Because if we 
launched a new satellite it would similarly, rapidly decay, 
because of the pumped up Van Allen Belts. True?
    Dr. Sega. A thorough discussion is appropriate probably 
more in a closed session. But let me clarify the reconstitution 
piece.
    We are just at the first stages of doing tactical satellite 
experiments in terms of rapid reconstitution. So, we are on 
that path, but we are a ways away from looking at that option 
in an operational sense.
    The effects that we look at in space are several-fold. And 
then on the ground, as you mentioned, the EMP is a strong 
electromagnetic wave, there is also the issue of particles, 
which would be different than the effect that you mentioned.
    And so, as we look at the design of satellites and the 
needs of the warfighter and the potential environments they 
need to operate in, we do need to consider all these different 
aspects. And I will leave it at that.
    Mr. Bartlett. If I use a physiological analysis of where I 
think we are, I think that we are sufficiently hardened so 
that, if I was representative of our military capability, my 
brain and spinal cord would work, but my arms and legs would 
not.
    And I am not sure what good signals would do me running 
around in my brain and spinal cord, if I had no arms and legs.
    And I think this is a reasonable analogy as to what our 
military would look like after a robust EMP lay-down. I think 
that we would have little or no warfighting capability 
remaining, other than nuclear.
    Is that incorrect?
    General Chilton. Sir, again, I do not think we want to get 
into discussions on capabilities and vulnerabilities here. But 
I do not--when you start talking a nuclear conflict here, I 
think we are talking about a different level than what we have 
been talking about here today.
    Mr. Bartlett. I want to thank you very much for permitting 
me to come. And I would--if you would welcome me to your closed 
hearing, I would be pleased to come there, too. Thank you very 
much.
    Ms. Tauscher. Not only that, Dr. Bartlett, what I am going 
to offer you is, if your military legislative assistant (MLA) 
would be willing to work with Ms. Ramsay for questions for the 
record, I think that is a better forum and a better, more 
classified opportunity for us to deal with these issues.
    And, of course, we will invite you to subsequent classified 
hearings on these issues, and I appreciate that you have a 
significant interest in this area, and we share that interest.
    Thank you very much.
    Gentlemen, the committee generally, and the ranking member 
and I, specifically, have concerns about black and white space 
coordination and other issues.
    And I am going to yield to the ranking member to make an 
offer.
    Mr. Everett. Thank you very much, Madam Chairman.
    I do have concerns that we are not looking closely enough 
at the emergence of black and white space. And I particularly 
think that Secretary Teets did a great job when he was here in 
trying to get us down that path.
    I think Space Radar may be a good idea--I mean, a good 
example of that.
    It seems to me that--Dr. Kerr, I heard what you said about 
it being a joint effort now. But I would make the suggestion 
that the IC tried to kill Space Radar with 1,000 different 
cuts.
    I am also interested in the merging of black and white 
space where possible. Where is the NSSO in this?
    And I understand again this year that DOD and the Air Force 
have cut any funding of personnel at NSSO.
    So, what I would like to do, and the chairman has kindly 
offered that we invite Dr. Sega and Dr. Kerr--and perhaps a 
couple of others--back for a hearing on this a little later.
    Ms. Tauscher. In a more classified setting.
    Mr. Everett. When we have a more classified setting.
    Thank you, Madam Chairman.
    Ms. Tauscher. I thank the ranking member.
    And let me thank our staff for doing such a great job.
    Gentlemen, I know that you have lots of people behind the 
scenes that enable you to have such significant testimony 
before us. We want to thank them, too.
    We want to thank you for your service to the country, and I 
think we are going to be seeing you sooner than we expected. 
That is a good thing for everyone. Thank you for all of your 
hard work.
    This hearing is adjourned.
    [Whereupon, at 11:00 a.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 23, 2007

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 23, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7322.001
    
    [GRAPHIC] [TIFF OMITTED] T7322.002
    
    [GRAPHIC] [TIFF OMITTED] T7322.003
    
    [GRAPHIC] [TIFF OMITTED] T7322.004
    
    [GRAPHIC] [TIFF OMITTED] T7322.005
    
    [GRAPHIC] [TIFF OMITTED] T7322.006
    
    [GRAPHIC] [TIFF OMITTED] T7322.007
    
    [GRAPHIC] [TIFF OMITTED] T7322.008
    
    [GRAPHIC] [TIFF OMITTED] T7322.009
    
    [GRAPHIC] [TIFF OMITTED] T7322.010
    
    [GRAPHIC] [TIFF OMITTED] T7322.011
    
    [GRAPHIC] [TIFF OMITTED] T7322.012
    
    [GRAPHIC] [TIFF OMITTED] T7322.013
    
    [GRAPHIC] [TIFF OMITTED] T7322.014
    
    [GRAPHIC] [TIFF OMITTED] T7322.015
    
    [GRAPHIC] [TIFF OMITTED] T7322.016
    
    [GRAPHIC] [TIFF OMITTED] T7322.017
    
    [GRAPHIC] [TIFF OMITTED] T7322.018
    
    [GRAPHIC] [TIFF OMITTED] T7322.019
    
    [GRAPHIC] [TIFF OMITTED] T7322.020
    
    [GRAPHIC] [TIFF OMITTED] T7322.021
    
    [GRAPHIC] [TIFF OMITTED] T7322.022
    
    [GRAPHIC] [TIFF OMITTED] T7322.023
    
    [GRAPHIC] [TIFF OMITTED] T7322.024
    
    [GRAPHIC] [TIFF OMITTED] T7322.025
    
    [GRAPHIC] [TIFF OMITTED] T7322.026
    
    [GRAPHIC] [TIFF OMITTED] T7322.027
    
    [GRAPHIC] [TIFF OMITTED] T7322.028
    
    [GRAPHIC] [TIFF OMITTED] T7322.029
    
    [GRAPHIC] [TIFF OMITTED] T7322.030
    
    [GRAPHIC] [TIFF OMITTED] T7322.031
    
    [GRAPHIC] [TIFF OMITTED] T7322.032
    
    [GRAPHIC] [TIFF OMITTED] T7322.033
    
    [GRAPHIC] [TIFF OMITTED] T7322.034
    
    [GRAPHIC] [TIFF OMITTED] T7322.035
    
    [GRAPHIC] [TIFF OMITTED] T7322.036
    
    [GRAPHIC] [TIFF OMITTED] T7322.037
    
    [GRAPHIC] [TIFF OMITTED] T7322.038
    
    [GRAPHIC] [TIFF OMITTED] T7322.039
    
    [GRAPHIC] [TIFF OMITTED] T7322.040
    
    [GRAPHIC] [TIFF OMITTED] T7322.041
    
    [GRAPHIC] [TIFF OMITTED] T7322.042
    
    [GRAPHIC] [TIFF OMITTED] T7322.043
    
    [GRAPHIC] [TIFF OMITTED] T7322.044
    
    [GRAPHIC] [TIFF OMITTED] T7322.045
    
    [GRAPHIC] [TIFF OMITTED] T7322.046
    
    [GRAPHIC] [TIFF OMITTED] T7322.047
    
    [GRAPHIC] [TIFF OMITTED] T7322.048
    
    [GRAPHIC] [TIFF OMITTED] T7322.049
    
    [GRAPHIC] [TIFF OMITTED] T7322.050
    
    [GRAPHIC] [TIFF OMITTED] T7322.051
    
    [GRAPHIC] [TIFF OMITTED] T7322.052
    
    [GRAPHIC] [TIFF OMITTED] T7322.053
    
    [GRAPHIC] [TIFF OMITTED] T7322.054
    
    [GRAPHIC] [TIFF OMITTED] T7322.055
    
    [GRAPHIC] [TIFF OMITTED] T7322.056
    
    [GRAPHIC] [TIFF OMITTED] T7322.057
    
    [GRAPHIC] [TIFF OMITTED] T7322.058
    
    [GRAPHIC] [TIFF OMITTED] T7322.059
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             March 23, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. EVERETT

    Mr. Everett. Please describe your view on the current state of 
``black and white'' space integration and what should be done in this 
area in the future. Consider the areas of organization and management, 
S&T, acquisition, operations, and personnel, at a minimum.
    Dr. Sega and General Chilton. I would characterize our integration 
efforts as collaborative and cooperative. While space is our common 
operations environment, we have distinct missions; however, we can 
leverage each others' expertise and resources to meet mission 
objectives. Last year the Chief of Staff of the Air Force and the 
Director of the National Reconnaissance Office (NRO) signed a 
memorandum that recognized the potential benefits of sharing expertise, 
best practices and lessons learned in developing, acquiring, fielding 
and operating modern space systems.
    We have integrated organizationally; for example, Mr. Bruce Wilson, 
our Deputy Director for Air, Space and Information Operations was a 
senior civilian member of the NRO, while Major General Tom Sheridan, 
the Deputy Director of the NRO is an Air Force general officer who came 
from Air Force Space Command. This is a great first step to improving 
formal interagency collaboration and long-range planning.
    Acquisition and Science & Technology (S&T) are additional areas 
where we are working jointly, and where we can continue to break new 
ground in areas of mutual benefit. For example, as Dr. Kerr testified, 
the President's Budget contained the first jointly funded approach to 
Space Radar consolidated under single program management. In addition, 
the NRO Deputy Director for Advanced Systems and Technology 
participates in the AFSPC S&T process that develops space programming 
guidance for the Air Force. This collaborative approach to space 
acquisition and S&T maximizes our resources on common spacecraft 
issues, and is where I foresee greater cooperation in the future.
    With respect to personnel and operations, we continue to work 
across service boundaries and with the NRO to get the right person with 
the right expertise in the right position to lead in the joint space 
environment. The Air Force provides nearly half of the NRO's workforce, 
while the Navy, Army and Marines also provide technical and support 
staff. We have created a joint space assignment advisory board to track 
the careers of space professionals to ensure that they are provided the 
job experiences, as well as the education and training, necessary for 
their professional advancement.
    Mr. Everett. What specific organization and management mechanisms 
are in place to address ``black and white'' space integration issues? 
What forum(s) exist for decision-making on issues across ``black and 
white'' space?
    Dr. Sega and General Chilton. The mission of the National Security 
Space Office (NSSO) is to enable National Security Space decision-
making. Two NSSO guiding principles are to embrace cross-community, 
``joint'' DoD and Intelligence Community (IC) perspectives and serve 
the needs of the Secretary of Defense and the Director of National 
Intelligence. One product of the NSSO supporting acquisitions was the 
creation of the National Security Space (NSS) Acquisition Policy 03-01 
which establishes a common guidance for DoD and IC space programs.
    An Air Force-National Reconnaissance Office (NRO) memorandum signed 
on 7 June 2006 defined several management mechanisms to enable 
integration. As a result, the Deputy Director of our Air, Space and 
Information Operations Directorate is now a senior civilian member of 
the NRO. Similarly, the Deputy Director of the NRO is an Air Force 
general officer who came from Air Force Space Command.
    We have several forums such as the Space Partnership Council, which 
includes senior representatives of Air Force Space Command, NRO, U.S. 
Strategic Command, the DoD Executive Agent for Space, NASA, CIA, and 
Defense Research & Engineering (DDR&E) organizations, as well as AFSPC 
S&T Councils, Defense Advanced Research Projects Agency (DARPA) Days 
with AFSPC, and AFSPC-NRO Focus Days that provide agency leaders the 
means to discuss and reach agreement on collaborative efforts.
    Mr. Everett. Who or what organization or management construct is 
responsible for overseeing the protection/defense of U.S. space assets? 
What processes are in place to address and enforce space protection 
within individual space acquisition programs and across the enterprise?
    Dr. Sega and General Chilton. The United States Air Force is 
responsible to the DoD and the Nation to provide capabilities to ``. . 
. defend the United States against air and space attack . . . and to 
establish local air and space superiority . . ..'' These mission 
critical roles and missions are based on specialized competencies 
within the USAF and are fully consistent with U.S. Space Policy and DoD 
Directive 5100.1.
    The Air Force will fulfill its responsibility to the Nation by 
developing, operating and sustaining a space architecture that will 
preserve space capabilities with increased space protection; as well as 
the ability to augment and restore critical military space missions 
when needed.
    Air Force Space Command (AFSPC) is well positioned as the DoD 
principal force provider and integrator to ensure DoD space protection 
capabilities. In this role, AFSPC partners with all Services, DoD 
agencies and U.S. Government organizations. Established DoD processes 
will be used to plan, program and budget required activities.
    Mr. Everett. What metrics currently exist to identify and track 
military space personnel and their experience? Do you know if an 
officer with a space technical or operations background is filling a 
space technical or operations billet? Please provide any statistics in 
this area to the subcommittee.
    General Chilton. In my role as the Space Professional Functional 
Authority (SPFA), I am responsible for the health of the Air Force 
Space Professional Community. We established an SPFA Advisory Council 
to assist in this effort by providing recommendations and guidance on 
policy directly impacting personnel development. During a recent 
meeting, the Advisory Council gave preliminary approval to a number of 
metrics designed to track the health of the Space Professional 
Community and the effectiveness of the Air Force Space Professional 
Development Program (SPDP).
    The Space Professional Management Office (SPMO) documents and 
tracks education, training and experience qualifications for each Air 
Force Space Professional in the Space Professional Development 
Database. The SPMO also tracks education, training and experience 
requirements for each space manpower billet in the Air Force. The 
education, training and experience criteria equate to one of three SPDP 
Certification Levels, which are also tracked in the database. 
Experience is documented using Space Professional Experience Codes 
(SPEC), ten alphanumeric codes that provide details on the type and 
amount of experience each individual possesses or each space billet 
requires. This data forms the baseline for a series of metrics.
    Yes, we do have the capability to know if an officer with a space 
technical or operations background is filling a space technical or 
operations billet. A broad set of metrics compares the inventory of 
Space Professionals versus space manpower requirements--comparing 
``supply'' (people) and ``demand'' (position requirements). These 
metrics can be focused on particular areas, depending on the type of 
assessment, i.e., Air Force Specialty Code (AFSC), SPDP Certification 
Level, and SPECs. For example, a metric can be used to assess the 
inventory of space operations (AFSC 13S) officers, at a particular SPDP 
Certification Level, with specific SPEC experience versus Air Force 
position requirements in the same categories. These metrics allow the 
SPMO to assess the adequacy of the personnel inventory to meet mission 
requirements--current and future. The metrics are also used in a 
variety of data analysis applications.
    Another metric compares individual skills versus position 
requirements for key leadership positions: wing, group and squadron 
commander. These metrics, expressed as a percentage, illustrate the 
number of key leaders who possess all the requirements for the position 
they occupy. A notional example: the commander of the 2nd Space 
Operations Squadron (2 SOPS) would be required to have (1) operations 
and (2) acquisition experience in the Satellite Operations SPEC, as 
well as specific experience in (3) Precision Navigation and Timing. 
Given these requirements, an individual selected for the 2 SOPS command 
position who does not have acquisition experience would meet 66% of the 
requirements. This metric confirms the right people are being assigned 
to the right jobs, enables inventory assessment to ensure an adequate 
pool of candidates for the 2 SOPS commander position, and validates 
position requirements.
    Metrics focused on space education, a key element of SPDD, provide 
feedback on the ability to meet requirements in this arena. One metric 
measures the ability of the National Security Space Institute (NSSI) to 
fulfill space professional education requirements (e.g., Space 200--
required for mid-grade Space Professionals) by comparing NSSI student 
capacity, annual student requirements and the number of students who 
completed the course during that year. Additional metrics track the 
number of available Space Professionals who possess specific 
educational credentials, e.g., space academic certificates, master's 
degrees and NSSI Advanced Courses versus billet educational 
requirements.
    We assess whether an officer with a space technical or operations 
background is filling a space technical or operations billet is done, 
as discussed above, by comparing the individual officer's 
qualifications documented in the Space Professional Development 
Database against the requirements for the technical/operations billet.
    In addition to the metrics reviewed by General Chilton and the 
Advisory Council, the SPMO routinely develops data on various 
characteristics of the Space Professional Community that provide 
insights into mission capabilities. Examples are provided below.

Notes:
1. A-J denotes Mission code
A: Satellite systems, B: Nuclear, C: Spacelift, D: Warning, E: Space 
Control, F: Intelligence, Surveillance and Reconnaissance, G: Kinetic 
Effects, H: Space Warning C2, I: Space Test, Evaluation, Education and 
Training, J: Space Staff

2. Air Force Specialty Code (AFSC)
13S: Space Operations (officer)
61S: Scientist
62E: Engineer
63A: Program Manager
1C6: Space Operations (enlisted)


                                                              Officer Billets by SPEC/Rank
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          A        B        C        D        E        F        G        H        I        J      Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
LT                                                         140      322       49       24       35       43        4        3        7       74      701
--------------------------------------------------------------------------------------------------------------------------------------------------------
CPT                                                        418      561      231      185      183      327       12      118      168      233     2436
--------------------------------------------------------------------------------------------------------------------------------------------------------
MAJ                                                        231      209      116      166      136      318       53      183      174      385     1971
--------------------------------------------------------------------------------------------------------------------------------------------------------
LTC                                                        128      107       77       84       77      234       56       61       93      261     1178
--------------------------------------------------------------------------------------------------------------------------------------------------------
COL                                                         26       33       32       19       14       50       14       16       14       86      304
--------------------------------------------------------------------------------------------------------------------------------------------------------
GEN                                                          1        4        1        0        1        3        4        2        0       18       34
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                           944     1236      506      478      446      975      143      383      456     1057     6624
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                             Officer Billets by AFSC
----------------------------------------------------------------------------------------------------------------
                          Officer                             13S      61S      62E      63A     Other    Total
----------------------------------------------------------------------------------------------------------------
LT                                                              446       22      125       89       19      701
----------------------------------------------------------------------------------------------------------------
CPT                                                            1300       97      527      332      180     2436
----------------------------------------------------------------------------------------------------------------
MAJ                                                            1040       59      347      306      219     1971
----------------------------------------------------------------------------------------------------------------
LTC                                                             507       36      182      278      175     1178
----------------------------------------------------------------------------------------------------------------
COL                                                              84        3       17       53      147      304
----------------------------------------------------------------------------------------------------------------
GEN                                                               0        0        0        0       34       34
----------------------------------------------------------------------------------------------------------------
                                                               3377      217     1198     1058      774     6624
----------------------------------------------------------------------------------------------------------------


                                                             SPEC vs. Experience (in years)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          A        B        C        D        E        F        G        H        I        I        J
--------------------------------------------------------------------------------------------------------------------------------------------------------
Any                                                       2782     3360     1427     1650     1550     1395      476      860     3807      970     2342
--------------------------------------------------------------------------------------------------------------------------------------------------------
>3                                                        1463     2405      626      628      638      718      162      318      434      256      670
--------------------------------------------------------------------------------------------------------------------------------------------------------
>6                                                         211      724       86      137      156      223       21       24       52       23      107
--------------------------------------------------------------------------------------------------------------------------------------------------------
>9                                                          20      249       23       35       44       63        2        1        9        2       21
--------------------------------------------------------------------------------------------------------------------------------------------------------
>15                                                          0       31        1        2        4        5        0        0        1        0        1
--------------------------------------------------------------------------------------------------------------------------------------------------------


                         Officer Billets by AFSC
------------------------------------------------------------------------
                    Officer
------------------------------------------------------------------------
                                                      13S        3377
                                               -------------------------
                                                      61S         217
                                               -------------------------
                                                      62E        1198
                                               -------------------------
                                                      63A        1058
                                               -------------------------
                                                    Other         774
                                                                 6624
------------------------------------------------------------------------


                   Officer/Enlisted Space Pros by AFSC
------------------------------------------------------------------------

------------------------------------------------------------------------
Officer
------------------------------------------------------------------------
                                         13S        3413
------------------------------------------------------------------------
                                         61S         363
------------------------------------------------------------------------
                                         62E        1686
------------------------------------------------------------------------
                                         63A        1186
------------------------------------------------------------------------
                                       Other         460         7108
------------------------------------------------------------------------
Enlisted
------------------------------------------------------------------------
                                         1C6         896
------------------------------------------------------------------------
                                       Other         385         1281
------------------------------------------------------------------------
                                                                 8389
------------------------------------------------------------------------


    Mr. Everett. With respect to the newer space acquisition programs 
like TSAT, Space Radar, and GPS-III, what specific criteria will be 
used (e.g., technology readiness levels, affordability), and at what 
point in the acquisition cycle, to determine whether these programs 
should continue to move forward or an alternative solution pursued? 
Similarly, what criteria are used to determine whether existing 
programs should be continued or a new approach pursued?
    Dr. Sega. National Security Space (NSS) Acquisition Policy 03-01 
provides acquisition process guidance for the combined space activities 
of the DoD and National Intelligence Community (IC). National 
Reconnaissance Office (NRO) Directive 7 describes a similar acquisition 
process for the IC portion of the NSS team.
    The NSS Acquisition Process is a streamlined, tailored method for 
the DoD Space Milestone Decision Authority (MDA) to use in the 
executive management and oversight of the DoD space programs under his 
authority. The process includes unambiguous acquisition phases, 
decision points based on program maturity with focused program 
assessments, and periodic reports and reviews. Key Decision Points 
(KDPs) are points in the acquisition timeline of a DoD Space program 
expressly used to address the questions you have raised. The DoD Space 
MDA convenes a Defense Space Acquisition Board (DSAB) for each KDP to 
obtain advice and information necessary to do a thorough evaluation of 
the program. Each DSAB reviews areas to revalidate warfighter 
requirements and mission need, the DoD and/or other appropriate 
components support for the program, assess the program life cycle 
financial requirements, and ultimately determine if the program should 
continue into the next phase, be redirected, or terminated. The 
standard required to begin development is that critical technologies be 
demonstrated in a relevant environment. The TSAT, Space Radar, and GPS 
III programs are all implementing significant Phase A system 
engineering activities and technology maturation plans to inform their 
planned KDP-B milestones. In preparation for these milestones each of 
these programs will undergo rigorous assessments in regard to 
technology readiness, affordability and a myriad of other factors. This 
will include an independent assessment of cost to understand 
affordability and a technology maturity assessment to understand 
technology readiness. These assessments must provide sufficient 
knowledge to the appropriate milestone decision authorities so that an 
informed decision can be made as to the future plans of these 
acquisitions to include alternative approaches if needed.
    Mr. Everett. What specific space surveillance commercial/foreign 
entity (CFE) services are funded in the Fiscal Year 2008 request and 
what are the Air Force's plans for implementing the CFE program on an 
ongoing basis? Are the resources available to enable both the 
completion of the pilot program and its full implementation thereafter?
    Dr. Sega and General Chilton. The existing CFE Pilot Program (also 
known as the spacetrack.org website) which provides basic information 
on unclassified cataloged space objects is not funded in the Fiscal 
Year 2008 request; however, AFSPC's intent is to allocate available 
funding from other requirements in the Space Situational Awareness 
program to maintain the program at its current level of service.
    AFSPC plans to evolve the existing CFE pilot program from a basic 
website to an improved operational capability that provides advanced 
services (conjunction assessment, launch screening, anomaly resolution, 
etc.) to a wide variety of customers to include Commercial, Allied, 
Public and Foreign Interests.
    No resources are available within the budget for full 
implementation of the program. Although we support the Presidents 
Budget, the 2008 unfunded priority list includes a request for funds to 
improve reliability and operationalize the existing CFE Pilot Program.
    Mr. Everett. Please describe your view on the current state of 
``black and white'' space integration and what should be done in this 
area in the future. Consider the areas of organization and management, 
S&T, acquisition, operations and personnel, at a minimum.
    Dr. Kerr. I do not look at ``black and white'' space integration as 
an end in itself, because space is the place from which we perform our 
mission; but it is not our mission.
    It is critical, however, that the Air Force and the NRO (as well as 
other U.S. organizations with space programs) continually examine what 
we need to meet our mission requirements and that we work closely to 
align and coordinate programs and capabilities whenever the result will 
be a more efficient and effective capability for our Nation. Below are 
several examples where the NRO has worked closely with others with the 
result that we all have stronger space programs.

      <bullet>  The NRO and Air Force reaffirmed our strong 
relationship on 7 June 2006, with a joint Statement of Intent, signed 
by Gen. Mosley and myself. This agreement bolstered the ties and 
reaffirms collaborative approaches between the Secretary of Defense and 
the Director of National Intelligence. The NRO's workforce, composed of 
approximately 50% Air Force personnel and more than 40% CIA employees, 
serves as the ultimate exemplar for joint and integrated activities. 
The NRO and our partner agencies have cooperated to advance the 
nation's space interests in several areas: EELV, Space Radar, the Space 
Partnership Council, and STRATCOM's Joint Forces Component Commander 
for Space (JFCC-Space).

      <bullet>  One key acquisition and operational example involves 
the Evolved Expendable Launch Vehicle (EELV) agreement between the Air 
Force (as DoD's executive agent for launch) and the NRO. EELV is a true 
partnership--there is a 30/70 split between the NRO and Air Force on 
all launch costs. The NRO and the Air Force use the same launch bases 
and range support assets. The Air Force's Space and Missile Systems 
Center (SMC) provides booster verification process and the NRO funds 
50% of SMC launch related Aerospace Corp technical expertise. 
Additionally, NRO communications teams support all EELV missions (NRO, 
Air Force and commercial launches). This partnership helps ensure 
mission success through unfettered sharing of EELV performance data.

      <bullet>  The Space Radar program stands out as a future 
operational system where the NRO and Air Force have devised an 
integrated effort to achieve persistent surveillance capabilities for 
the nation. The Program Executive Officer, Air Force Major General Torn 
Sheridan, who also serves as NRO Deputy Director, and his NRO/CIA 
Deputy Program Executive Officer are following Intelligence Community 
and DoD guidance to jointly produce spacecraft and develop ground 
infrastructure to operate Space Radar with funds now consolidated into 
the military and national intelligence budget. Managing the SR Program 
within the NRO MIP portfolio also strengthens efforts to integrate SR 
budgets and efforts into the classified NGA and NRO ground 
architectures to ensure an end-to-end capability is developed.

      <bullet>  More recently, the NRO intensified cooperative efforts 
with our mission partners regarding Space Situational Awareness. The 
NRO and STRATCOM exchanged senior leaders to support the JFCC-Space, 
BGEN Jeff Horne, the NRO's Deputy Director for Mission Support is dual-
hatted as the Deputy JFCC-Space. Finally, tighter integration has been 
achieved by the initiation of backup command and control capabilities 
between STRATCOM's Joint Space Operations Center (JSpOC) and the NRO's 
Operations Center (NROC).

    Mr. Everett. What specific organization and management mechanisms 
are in place to address ``black and white'' space integration issues? 
What forum(s) exist for decision-making on issues across ``black and 
white'' space?
    Dr. Kerr. As mentioned earlier, the NRO works closely with others 
to ensure that we are developing systems and capabilities that best 
meet the needs of our nations. This goes well beyond the NRO and the 
Air Force, to include many other parties.

      <bullet>  The NRO is a member of the Space Partnership Council. 
This council provides coordination between Air Force Space Command, 
USSTRATCOM, the NRO, NASA and DARPA. The council considers broad 
issues, including science and technology development, involving the 
nation's space programs and allows senior leadership to responsively 
address issues that impact the nation's space program as a whole. This 
council meets twice a year, April and December.

      <bullet>  NRO/AS&T meets regularly with other research and 
development organizations, such as DARPA, National Labs and others, to 
collaborate on new technologies and to support each other in our mutual 
research.

      <bullet>  The NRO participates in the NASA/NRO working group to 
answer questions of shared architecture and resources,
    Mr. Everett. Who or what organization or management construct is 
responsible for overseeing the protection/defense of U.S. space assets? 
What processes are in place to address and enforce space protection 
within individual space acquisition programs and across the enterprise?
    Dr. Kerr. The Intelligence Community and Department of Defense have 
traditionally supported one another in the analysis and mitigation of 
threats to our space systems. Primarily, STRATCOM, in their role as 
JFCC-Space, is responsible for the defense of our space assets. As 
previously stated, the NRO's Operations Center (NROC) and the 14th AF's 
Joint Space Operations Center (JSpOC) jointly provide Space Situational 
Awareness data to the space community to ensure we collectively have 
the most current threat data.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. BARTLETT
    Mr. Bartlett. What percent would you say of our total military 
communications moves over EMP-hardened satellites?
    General Chilton. In total, approximately 85% of our military-owned 
SATCOM capacity is EMP-hardened. Of DoD-owned SATCOM systems on orbit 
(UHF Follow-On [UFO], the Defense Satellite Communications System, and 
Milstar), only UFO
satellites were not intended to operate in an EMP environment. None of 
the commercial capacity we lease is EMP hardened. Adding commercial 
SATCOM to our total communication capacity reduces the percent of the 
EMP-hardened SATCOM for military use to 13-14 percent.

                                  <all>

</pre></body></html>
